<html>
<title> - A CALL TO ACTION REPORT OF THE NATIONAL PARK SERVICE</title>
<body><pre>[Senate Hearing 112-225]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-225
 
                    A CALL TO ACTION REPORT OF THE 

                         NATIONAL PARK SERVICE

=======================================================================


                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON

                      ENERGY AND NATURAL RESOURCES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

  CONSIDER A RECENTLY RELEASED REPORT BY THE NATIONAL PARK SERVICE: A 

   CALL TO ACTION: PREPARING FOR A SECOND CENTURY OF STEWARDSHIP AND 

                               ENGAGEMENT

                               __________

                           SEPTEMBER 21, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
72-433                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RAND PAUL, Kentucky
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
AL FRANKEN, Minnesota                ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      DEAN HELLER, Nevada
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Jarvis, Jonathan B., Director, National Park Service, Department 
  of the Interior................................................     4
Morris, Jason, Executive Vice President, NatureBridge, San 
  Francisco, CA..................................................    12
Mulholland, Neil J., President and CEO, National Park Foundation.     7
Udall, Hon. Mark, U.S. Senator from Colorado.....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    33

                              Appendix II

Additional material submitted for the record.....................    41


          A CALL TO ACTION REPORT OF THE NATIONAL PARK SERVICE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mark Udall 
presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. Good afternoon. The Subcommittee on National 
Parks will come to order. Welcome gentlemen, I'm very much 
looking forward to the discussion that we're going to have on 
this important hearing to discuss the build up to the 100-year 
anniversary.
    That's truly 100 years, anniversary of the founding of the 
National Park Service and our National Park system. 
Specifically we're here to review a report that the Park 
Service issued last month entitled, A Call to Action: Preparing 
for a Second Century of Stewardship and Engagement. It 
identifies 36 separate actions the Park Service plans to 
undertake in preparation for the agency's centennial in 2016.
    Over the past 2 decades there have been a number of reports 
that have attempted to provide guidance to the Park Service. 
These range from the Park Service's so-called Vail Agenda 
issued 20 years ago to the Bush Administration's Centennial 
Challenge Initiative 5 years ago which focused on raising 
billions to promote specific programs in the parks. Last year 
the National Park's Conservation Association convened the 
National Park's Second Century Commission which was co-chaired 
by former Senators Howard Baker and Bennett Johnston, provide 
recommendations to the Park Service as it moves forward in its 
second century of operation.
    I don't have to tell the Director of the Park Service that 
a tremendous amount of time and professional expertise has been 
invested in all of these reports. Our challenge is to see 
Congress work with the Park Service to use these 
recommendations to make sure that the services in our Park 
System are fully prepared for the next 100 years. But while 
we're here let's not forget what the National Park System has 
become over the first and the last 100 years.
    From the creation of the first park, Yellowstone in 1872 to 
today our National Parks have helped us better understand our 
history and protect special landscapes. The National Parks 
unite us. They are a place for people all across the globe to 
come together to recreate, to find adventure or calm for 
peaceful contemplation.
    For me, personally, National Parks have helped shape who I 
am today. Many people are familiar with my father, Congressman 
Mo Udall and my Uncle, Interior Secretary Stewart Udall and 
their work to promote conservation across the country 
especially through the Park Service. But in this subcommittee 
and in my passion for conservation generally, I often think 
frankly more about my mother and how she was the real 
conservationist in our family.
    She was a Coloradan. She raised 6 kids. She was a member I 
found out later in life of the NRA. She was a sharp shooter, a 
marksman, an angler and an equestrian. She encouraged my 5 
brothers and sisters and me to get outside, to get dirt under 
our fingernails, to look at and also tackle the steepest 
climbs, to strap on our skis on the coldest days and on the 
coldest mountains. Her influence prevailed in many ways.
    That passion for the outdoors is why I campaigned to be 
able to chair this important subcommittee. That's why one of my 
top priorities for this Congress and the coming years will be 
to build upon what has been an incredibly successful Federal 
agency. Make it even better.
    I'd be remiss if I didn't mention as a parent myself some 
of my favorite times with my own children, Jed and Tess, have 
been in our National Parks. They're young adults now and old 
enough to pursue their own outdoor adventures although they do 
invite me along every once in a while. But it has me thinking 
about who will the next generation of enthusiasts be? What 
better antidote to the childhood obesity crisis is there than 
to get another generation of kids away from video games and 
outside in our parks. I strongly believe that without 
developing a solid relationship with America's youth, our 
National Park system will suffer.
    That's why I've started an initiative this year to 
encourage kids and their parents to get involved in outdoor 
activities in Colorado. But our enthusiasm for the parks is not 
without challenges. We all know the challenges the Park Service 
and the Federal Government, as a whole, face.
    A common topic in this subcommittee is the maintenance 
backlog that the Park Service and many other public land 
agencies face. That backlog is going to continue to grow and 
the Federal Government is going to have to make difficult 
decisions about where to invest limited Federal dollars. So I'm 
interested in exploring the endowment idea that is in this 
important report.
    Today I'm looking forward to hearing about this report in 
detail from Jon Jarvis, the Director of the National Park 
Service, specifically how he sees its recommendations being 
implemented and to what extent this newest report will build on 
or differs from the earlier efforts. In announcing this report 
Director Jarvis highlighted how the future successes of the 
National Park Service rely on efforts from partners.
    We've also invited 2 organizations with a long and 
established history of cooperative work to benefit our National 
Parks to hear their views as well.
    The first organization is the National Park Foundation, the 
congressionally chartered, philanthropic partner of the 
National Park Service.
    The second is NatureBridge, which for 40 years has worked 
with the Park Service to educate and bring school aged children 
to our National Parks.
    I look forward to hearing from each of our 3 witnesses 
today. If Senator Paul was able to join us, he's the 
subcommittee's ranking member, we'll recognize him for any 
statement that he'd like to make. His timing is impeccable. 
Senator Paul, I can filibuster for a minute or 2 if you'd like 
or I can recognize you.
    Senator Paul. I'm ready if you are ready.
    Thank you for holding these hearings. I don't have an 
opening statement. But I look forward to hearing the testimony.
    Senator Udall. Thank you, Senator Paul.
    Director Jarvis, let's turn to you and we'll in turn hear 
from Mr. Mulholland, who has deep Colorado roots and Mr. Morris 
as well.
    So welcome, gentlemen.
    Director Jarvis.
    [The prepared statement of Senator Mark Udall follows:]
   Prepared Statement of Hon. Mark Udall, U.S. Senator From Colorado
    Good afternoon. Today, the Subcommittee on National Parks is 
holding a hearing to discuss the buildup to the 100 year anniversary of 
the founding of the National Park Service and our National Park system.
    Specifically, we are here to review a report that the Park Service 
issued last month, entitled ``A Call to Action: Preparing for the 
Second Century of Stewardship and Engagement.'' It identifies 36 
separate actions the Park Service plans to undertake in preparation for 
the agency's centennial in 2016.
    Over the past two decades, there have been a number of reports that 
have attempted to provide guidance to the Park Service. These range 
from the Park Service's so-called ``Vail Agenda'', issued 20 years ago, 
to the Bush Administration's ``Centennial Challenge'' initiative five 
years ago, which focused on raising billions to promote specific 
programs in the Parks.
    And last year the National Parks Conservation Association convened 
the National Parks Second Century Commission, which was co-chaired by 
former Senators Howard Baker and Bennett Johnston, to provide 
recommendations to the Park Service as it moves toward its second 
century of operation.
    A tremendous amount of time and professional expertise has been 
invested in these reports. Our challenge is to see Congress work with 
the Park Service to use these recommendations to make sure that the 
Service and our Park system are fully prepared for the next 100 years.
    Let's not forget what the National Park System has become over the 
last 100 years.
    From the creation of the first park--Yellowstone--in 1872 to today, 
our national parks have helped us better understand our history and 
protect special landscapes. The national parks unite us. They are a 
place for people from all across the globe to come together to 
recreate, to find adventure--or calm for peaceful contemplation.
    For me personally, National Parks have helped shaped who I am 
today. Many people are familiar with my father, Congressman Mo Udall, 
and my uncle, Interior Secretary Stewart Udall, and their work to 
promote conservation across the country--especially through the Park 
Service.
    But in this Subcommittee, and my passion for conservation 
generally, I often think about my mother and how she was the real 
conservationist in our family. She was a Coloradan, she raised six 
kids. She was a member of the NRA, a sharpshooter, a marksman, an 
angler, and an equestrian. And she encouraged my five brothers and 
sisters and me to get outside. . .to feel the dust in our hands, tackle 
the steepest climbs, and ski the coldest mountains. Her influence 
prevailed in many ways. That passion for the outdoors is why I sought 
to become chairman of this Subcommittee. And that is why one of my top 
priorities for this Congress and the coming years will be to build upon 
what has been an incredibly successful federal agency and make it even 
better.
    As a parent myself, some of my favorite times with my own children, 
Jed and Tess, have been in our national parks. They're grown now, and 
old enough to pursue their own outdoor adventures, but it has me 
thinking about who the next generation of enthusiasts will be. . . What 
better antidote to the childhood obesity crisis is there than to get 
another generation of kids away from video games and outside in our 
parks? I strongly believe that without developing a solid relationship 
with America's youth, our Park system will suffer. That's why I've 
started with an initiative this year to encourage parents to get their 
kids involved in outdoor activities in Colorado.
    But enthusiasm for the parks is not without challenges. We all know 
the challenges the Park Service--and the federal government as a 
whole--face.
    A common topic in this subcommittee is the maintenance backlog that 
the Park Service--and many other public lands agencies--faces. That 
backlog is going to continue to grow and the federal government is 
going to have to make difficult decisions about where to invest limited 
federal dollars. So I'm interested in exploring the endowment idea that 
is in this report.
    Today, I am looking forward to hearing about this report in detail 
from Jon Jarvis, the Director of the National Park Service, 
specifically how he sees its recommendations being implemented and to 
what extent this newest report will build on or differs from the 
earlier efforts. In announcing this report, Director Jarvis highlighted 
how the future success of the National Park Service will rely on 
efforts from park partners. We have also invited two organizations with 
a long and established history of cooperative work to benefit our 
national parks, to hear their views.
    The first organization is the National Park Foundation, the 
congressionally-chartered philanthropic partner of the National Park 
Service, and the second is NatureBridge, which for 40 years has worked 
with the Park Service to educate and bring school-aged children to our 
national parks.
    I look forward to hearing from our three witnesses in a few 
minutes. First, I'd like to recognize Senator Paul, the subcommittee's 
ranking member, for any statement he'd like to make.

   STATEMENT OF JONATHAN B. JARVIS, DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Jarvis. Thank you, Mr. Chairman and Senator Paul. I 
appreciate the opportunity to appear before you today to 
discuss A Call to Action: Preparing for a Second Century of 
Stewardship and Engagement.
    We launched A Call to Action in a town hall meeting in 
Ford's Theatre and broadcast it to the National Park Service 
employees and partners on August 25th, which was our 95th 
anniversary. This document and its actions were developed by 
National Park Service career employees as a road map to help us 
and our partners prepare for our second 100 years of service to 
the American people. A Call to Action is both a rededication of 
our mission and a recognition that we need to strategically 
integrate what we do in parks with our programs that offer 
historic preservation, recreation and conservation assistance 
to communities.
    The document is built around 4 themes.
    The first is connecting people to parks. That involves a 
continuum of engaging recreational, educational, volunteer and 
work experiences as well as outdoor activities to really engage 
diverse audiences.
    The second is advancing the National Park Service's 
education mission through collaborative means that will help 
develop American values, civic engagement and citizen 
stewardship. We will do this in part through using social 
media, leading edge technologies to capture public interest and 
working directly with many of our partners, such as 
NatureBridge, who is with us here today.
    Nine actions are identified to achieve thematic goals for 
preserving America's special places. These include 
modernization of historic preservation technologies and 
engaging the power of philanthropy as well as addressing 
critical infrastructure needs.
    Finally the theme of enhancing professional and 
organizational excellence will be accomplished by meeting 
recruitment and retention goals of a diverse work force and the 
development of an innovative, collaborative and creative work 
force.
    Across A Call to Action there are 36 action items. They 
call upon our employees and our partners to choose. For 
instance one action calls for expanding opportunities for 
students to directly experience National Parks through 
transportation support provided by our Park partners.
    Another action will encourage our visitors to make healthy 
lifestyle choices when they purchase healthy, sustainably, 
locally produced and reasonably priced food options in our 
concession operations.
    Additional action items are called for that will connect 
people to parks, including local ones in their own communities.
    A Call to Action challenges us to create youth employment 
pathways to connect new and diverse generations to parks.
    To reach 25 percent of the Nation's K through 12 school 
population through virtual field trips, teacher training, 
online resources and actual visits to the parks.
    Foster civic dialog about the stories of the civil rights 
movement found within the National Parks through a series of 
special events that commemorate significantly the 50th 
anniversary of the civil rights movement.
    Demonstrate how historic structures can be sustainable and 
part of an economic vitality of rural and urban communities.
    Develop a $1,000,000,000 billion, second century endowment 
campaign with the National Park Foundation and our other 
partners.
    Each of the senior executives in the National Park Service 
have stepped up to champion an action item. I've asked that 
every park, every program and every office identify those 
actions that they will work on and encouraged them to work with 
their local and national partners like our friends groups, our 
cooperating associations and concessioners in this effort.
    A key component to this Call to Action is that it is built 
upon the expectation that there will be little or no new money, 
new Federal money anyway, in the National Park Service in the 
near future. With so many things that divide us as a Nation we 
see the National Parks as a rallying point that can unite every 
American in a sense of wonder, patriotism and pride in our 
country. One of the National Park Service's most important 
responsibilities is to invite fellow citizens to get to know 
these places that they own, discover how the National Park 
Service can help revitalize their neighborhoods and join in the 
stewardship of America's greatest places.
    A Call to Action challenges our employees and partners to 
commit to concrete actions that advance the mission of the 
service.
    Mr. Chairman, that concludes my statement. I'd be pleased 
to answer any questions.
    [The prepared statement of Mr. Jarvis follows:]
   Prepared Statement of Jonathan B. Jarvis, Director, National Park 
                  Service, Department of the Interior
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to discuss ``A Call to Action--
Preparing for a Second Century of Stewardship and Engagement.''
    A Call to Action was announced at a Town Hall meeting at historic 
Ford's Theatre and broadcast to National Park Service employees 
Servicewide on August 25, 2011--our 95th anniversary. It was developed 
by National Park Service career employees as a roadmap to help us--and 
our partners--prepare for our second hundred years of service to the 
American people. It is online at www.nps.gov/CallToAction.
    A Call to Action is both a rededication to our mission and a 
recognition that we need to strategically integrate what we do in parks 
with our programs that offer historic preservation, recreation, and 
conservation assistance to communities. The plan builds on three 
previous reports--America's Great Outdoors: A Promise to Future 
Generations (2011); the National Parks Second Century Commission 
Report, Advancing the National Park Idea (2009); and The Future of 
America's National Parks (the Centennial Report, 2007).
    A Call to Action is built around four themes. Connecting People to 
Parks involves a continuum of engaging recreational, educational, 
volunteer, and work experiences and outdoor activities to engage 
diverse communities. Advancing the NPS Education Mission through 
collaborative means will develop American values, civic engagement, and 
citizen stewardship. We will do this, in part, through use of social 
media and leading-edge technologies to capture public interest. 
Environmental literacy programs offered by organizations such as 
NatureBridge further this theme. Nine actions are identified to achieve 
thematic goals for Preserving America's Special Places. These include 
modernization of historic preservation technologies and engaging the 
power of philanthropy to provide legacy support for the NPS both 
nationwide and at the individual park level. Finally, the theme of 
Enhancing Professional and Organizational Excellence will be 
accomplished by meeting goals such as recruitment and retention of a 
diverse workforce and development of an innovative, collaborative and 
creative workforce.
    Across the themes, A Call to Action lays out 36 specific action 
items that NPS employees and partners will undertake. For instance, one 
action calls for expanding opportunities for 100,000 students to 
directly experience national parks through transportation support 
provided by the National Park Foundation and other park partners. 
Another action will encourage park visitors to make healthy lifestyle 
choices through choices of healthy, sustainably produced, and 
reasonably priced food options in parks.
    Additional actions are called for that will connect people to 
parks, including the local ones in their own communities. These actions 
will advance the educational mission of the NPS and continue our 
efforts to preserve and interpret America's special places. A Call to 
Action challenges us to:

  <bullet> Create a pathway to youth employment in the NPS to connect 
        new, diverse generations to parks.
  <bullet> Reach 25 percent of the nation's K-12 school population 
        annually through virtual field trips, teacher training, online 
        resources, and visits to parks.
  <bullet> Reach new audiences with digital media and engage in 
        conversations with all Americans.
  <bullet> Create a new generation of citizen scientists and future 
        stewards with fun and educational biodiversity discovery 
        activities in at least 100 parks.
  <bullet> Foster civic dialogue about the stories of the civil rights 
        movement found within the parks through a series of special 
        events to commemorate significant 50th anniversaries of the 
        civil rights movement.
  <bullet> Demonstrate, using modern historic preservation techniques 
        and technologies, how historic structures can be sustainable 
        and part of the economic vitality of rural and urban 
        communities.
  <bullet> Develop a $1 billion second-century endowment campaign with 
        the National Park Foundation and other NPS partners.

    Each of our Senior Executives have stepped up to champion an action 
item and I have asked every park, program, and office to identify those 
action items that they will work on, and encouraged them to engage 
local and national partners like the National Park Foundation, friends 
groups, cooperating associations, and concessioners in this effort.
    We have also created an intranet site that allows employees across 
the Service to learn from each other, share great ideas, and 
collaborate on success using tools like discussion forums and a blog.
    It is also important to note that A Call to Action assumes no new 
funding. We are committed to focusing our efforts to accomplish our 
objectives within our budget, or in some cases, with the help of our 
amazing partners.
    With so many things that divide us as a nation, we see the national 
parks as a rallying point that can unite every American in a sense of 
wonder and pride in our country. One of the National Park Service's 
most important responsibilities is to invite our 307 million fellow 
citizens to get to know these places that they own, discover how the 
National Park Service can help them revitalize their neighborhoods, and 
to join in the stewardship of America's greatest places. A Call to 
Action challenges our employees and partners to commit to concrete 
actions that advance the mission of the Service.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or the other members of the subcommittee 
may have.

    Senator Udall. Thank you, Director Jarvis.
    Mr. Mulholland, welcome to Washington. It's good to see you 
here.

 STATEMENT OF NEIL J. MULHOLLAND, PRESIDENT AND CEO, NATIONAL 
                        PARK FOUNDATION

    Mr. Mulholland. Great to see you.
    Mr. Chairman, Senator Paul, thank you for the privilege of 
appearing before you today. The National Park Foundation 
commends the subcommittee for its commitment to help preserve 
the National Park Service, prepare the National Park Service 
for the opportunities and challenges of the next century and 
for highlighting the role that partnerships and philanthropy 
will play in the future.
    Established by Congress in 1967 the National Park 
Foundation is the philanthropic and promotional partner of the 
National Park Service. Through our grant making programs and 
public outreach the Foundation works with Park Service leaders 
to conserve natural resources, engage diverse audiences, 
promote health and recreation in the great outdoors and educate 
our children about our shared American history in the places 
where it actually happened.
    In the previous 5 years the Foundation has contributed over 
$123 million to the Park Service in grants, program support and 
contributive goods. In addition the Foundation is leading the 
$30 million, private fundraising campaign to build the Flight 
93 National Memorial which was dedicated earlier this month. 
Unlike other congressionally chartered, non-profits established 
to support land management agencies, the Foundation receives no 
Federal appropriations.
    This year the Foundation initiated a strategic planning 
process to increase alignment between our organization and the 
Park Service. The process has helped us refine our mission of 
enriching America's National Parks and programs through private 
support. Developed simultaneously the Foundation's strategic 
planning and the development of the Park Service Call to Action 
report had significant overlap.
    The Foundation was pleased to provide thoughts and ideas to 
the Park Service in the development of a Call to Action. I'm 
energized by the opportunities it presents to expand public/
private partnerships to protect and preserve our National 
Parks.
    A Call to Action envisions a Park Service that works 
closely with partners to improve visitor services, but also 
strengthen local economies, create jobs and support 
conservation in American communities. The Foundation embraces 
this vision and believes that park philanthropy is a vital 
element of securing the second century for parks. Annually the 
National Park Foundation and National Park Friends groups grant 
over $100 million in private support to National Parks.
    The Foundation's new strategic vision aligns with many of 
Call to Action goals. By example, the report calls for reaching 
25 percent of the Nation's K to 12 school population annually 
so that they may learn about our parks. Like our friends at 
NatureBridge, the Foundation has a great passion for the 
education of our youth. The Foundation's park stewards program 
gives high school teachers and students the opportunity to 
build a deeper connection to their National Parks through 
service learning projects that will leverage our parks as 
classrooms. Today over 4,000 students have directly benefited 
from park stewards program and more than 100,000 National Park 
visitors have been positively impacted by the work of the park 
steward students.
    Through a Call to Action, the Park Service highlighted an 
important mechanism for inviting all Americans to continue 
their support of our National Parks, an endowment. A second 
century National Park endowment will require the Foundation, 
the Park Service and local friends groups to work 
collaboratively to assess the feasibility of a coordinated 
friend fundraising campaign. It also provides a challenge to 
think beyond the traditional definition of an endowment. 
Instead consider the potential of an umbrella structure 
encompassing a range of restricted and unrestricted funds, 
capital campaigns and fund raising initiatives. The Park 
Service and the Foundation are now beginning that conversation, 
planning to due diligence necessary to successfully launch such 
an effort. Our organizations will explore how to create a 
portfolio of national and local park endowments that will 
complement rather than compete against one another.
    A second century endowment is a legacy for the current 
generation and a benefit for future generations. Those who lead 
the Foundation, friends groups and the Park Service realize 
that the actions we take today in establishing an endowment 
will be a long term strategy to position the parks for future 
success.
    A second century endowment has the potential to benefit 
from the transfer of trillions of dollars of wealth from baby 
boomers to their children and the causes they are passionate 
about. Our National Parks have demonstrated for generations 
that they are worthy of philanthropy. They have used this 
private support to become centers of education, science, 
history, recreation and conservation.
    A second century endowment or a constellation of national, 
local endowments ensures continuity in programming during 
periods of financial uncertainty. Yet we recognize that an 
endowment and all other forms of private park philanthropy will 
only be successful when donors have faith that their government 
is doing everything they can to ensure that these special 
places remain preserved and protected for future generations.
    Partnership in philanthropy must be central to the future 
of our National Parks. We are confident this can be 
accomplished in a manner that enables national and local 
partners to be successful and fulfill our shared mission with 
the Park Service. Through a Call to Action the Park Service is 
committed to transform itself to meet the needs of the American 
people in the next century. As its congressionally established 
partner, the National Park Foundation is committed to securing 
the private resources necessary to help the Park Service 
achieve these goals.
    Thank you, Mr. Chairman, Senator Paul, for your ongoing 
support of America's National Parks.
    [The prepared statement of Mr. Mulholland follows:]
 Prepared Statement of Neil J. Mulholland, President and CEO, National 
                            Park Foundation
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today. The National Park Foundation 
(``Foundation'') commends this Subcommittee for its commitment to help 
prepare the National Park Service (``NPS'') for the challenges and 
opportunities of the next century and for highlighting the role that 
partnerships and philanthropy will play in this future.
    Established by Congress in 1967 (PL 90-209), the Foundation serves 
as the philanthropic and promotional arm of the NPS. Through its grant-
making programs and public outreach, the Foundation works with NPS 
leaders in Washington, D.C. and in parks across the country to fund 
conservation and sustainability efforts, engage diverse communities, 
promote health and recreation in the great outdoors and educate our 
citizens about our shared history in the places where it happened.
    In the previous five years (FY2006-2010) the Foundation has 
provided $95 million in grants and program support and more than $28 
million in contributed goods and services to the NPS, a total 
contribution of over $123 million. Unlike other Congressionally 
chartered nonprofits established to support land management agencies, 
the Foundation receives no federal appropriations. The Foundation is 
governed by a citizen Board of Directors appointed by the Secretary of 
the Interior. Additionally, the Secretary and the NPS Director serve ex 
officio as Chairman and Secretary of the Board, respectively. The 
Secretary of the Interior and the NPS Director have always been 
invaluable resources to the Board as it charts a course for our 
organization.
    This year, the Foundation initiated a strategic planning process 
with the goal to increase alignment between our organization and the 
NPS. The process has helped the Foundation's Board and staff to refine 
our mission of enriching America's national parks and programs through 
private support, safeguarding our heritage and inspiring generations of 
national park enthusiasts. The Foundation's strategic planning process 
and the development of the NPS A Call To Action report had significant 
overlap and both organizations benefited from the simultaneous and 
parallel conversations about how best to adapt our long standing 
organizations to this new moment in our nation's history.
    The Foundation was pleased to provide thoughts and ideas to the NPS 
in its development of A Call To Action, and I am energized by the 
opportunities it presents to expand public-private partnerships to 
protect and preserve our national parks. In my testimony, I will 
highlight how the Foundation will assist the NPS in finding creative 
and innovative ways to meet the goals outlined in A Call To Action, 
including its call for an endowment for the national parks, and the 
role of park philanthropy in the next century.
                  philanthropy and the national parks
    Since Yellowstone National Park was established in 1872, private 
philanthropy has been at the core of the preservation, protection, and 
improvement of America's national parks, and will continue to be 
essential in securing their future.
    Private philanthropy helped create individual national parks, as 
well as the National Park Service itself. The earliest philanthropic 
acts spanned the country from California to Maine. In 1907, William and 
Elizabeth Thatcher Kent donated land that later became Muir Woods 
National Monument in California. In June 1916, a group of private 
citizens donated to the federal government the land for Sieur de Monts 
National Monument in Maine, the very same land that would one day grow 
and develop into Acadia National Park. Stephen Mather himself, the 
first director of the NPS, contributed from his personal fortune to 
support parks and their administration both before and after he led the 
agency. In addition to land purchases, Mather enlisted several western 
railroads to join him in contributing $48,000 to publish the National 
Parks Portfolio, which promoted national parks and helped persuade 
Congress to create the NPS in 1916.
    These examples from, what are today, the icons of our national park 
system necessitate the recognition of park philanthropy as a vital 
element of the second century for parks. Annually, the National Park 
Foundation and Friends Groups leverage the federal government's 
necessary investment in national parks to grant over $100 million in 
private support to the parks. With the help of these nonprofit park 
partners, the Foundation will build on this rich tradition and help 
achieve the goals of A Call To Action with public and private interests 
working in tandem.
IMPLEMENTING A CALL TO ACTION
    A Call To Action envisions a National Park Service that works 
closely with park partners to improve the services they provide within 
our parks, but also to strengthen local economies, create jobs and 
support conservation in American communities. Park partners like the 
Foundation are asked to work hand in hand with NPS employees to advance 
a shared vision toward the NPS centennial in 2016.
    The Foundation looks forward to working with the NPS to help 
convene national park Friends Groups, cooperating associations and 
other nonprofit park partners in preserving, interpreting and restoring 
natural, historic and cultural resources in the NPS and local 
communities. It will work to enable park partners, educational 
institutions and youth to use national parks as places of learning and 
thereby deepen our knowledge and understanding of the natural world, 
science, art, history and other academic disciplines. The Foundation 
will seek to collaborate with non-NPS land managers and park partners 
to conserve urban, rural and landscape-scale resources that connect 
these neighboring lands to parks.
    The work of the Foundation and its new strategic vision align with 
many A Call To Action goals including:

  <bullet> Provide multiple ways for children to learn about the 
        national parks and what they reveal about nature, the nation's 
        history, and issues central to our civic life.

    The Foundation and NPS are looking to leverage the NPS Teacher-
        Ranger-Teacher program with the Foundation's Park Stewards, a 
        grant program that gives high school teachers and students the 
        opportunity to build a deeper connection and sense of 
        stewardship for their national parks through personal 
        engagement and service learning projects. To date, over 4,000 
        students have directly benefited from the Park Stewards 
        program; an estimated 7,000 have indirectly benefited; and more 
        than 100,000 national park visitors have also benefited from 
        materials and activities produced by the Park Stewards 
        students.

  <bullet> Expand opportunities for students to directly experience 
        national parks, where natural and historic settings inspire 
        powerful learning. To achieve this we will provide 
        transportation support for 100,000 students each year to visit 
        national parks.

    Early next year, the Foundation will offer a grant program aimed at 
        helping parks provide transportation for youth in their local 
        area to engage with park programs, educational efforts and 
        service opportunities.

  <bullet> Foster civic dialogue about the stories of the civil rights 
        movement found within the parks.

    The African American Experience Fund of the National Park 
        Foundation is working with NPS Interpretation and Education to 
        plan numerous special events between 2012 and 2015 to 
        commemorate the 50th anniversaries of major national civil 
        rights events including the 1963 March on Washington, enactment 
        of the Civil Rights Act, enactment of the Voting Rights and 
        other key events that are memorialized in our parks.

  <bullet> Lead the way in protecting natural darkness as a precious 
        resource and create a model for dark sky protection.

    Since 2005, the Foundation's Best Lighting Practices grant program 
        has worked to reduce light pollution in several national parks 
        and we are working with corporate partners like Musco Lighting 
        to expand that commitment.

  <bullet> Create a new basis for NPS resource management to inform 
        policy, planning, and management decisions and establish the 
        NPS as a leader in addressing the impacts of climate change on 
        protected areas around the world.

    The Foundation has committed to fund the re-examination of the 
        Leopold Report to help the NPS enhance its national resource 
        science and stewardship in the next century.

    Each of these goals presents the private sector with an opportunity 
to provide financial, technical, scientific and educational support and 
expertise to help the NPS meet and exceed its expectations.
                       a second century endowment
    America's national parks are owned by all its citizens. As the 
history of park philanthropy suggests, these citizens have supported 
their parks through their tax dollars and their charitable 
contributions. In A Call To Action, NPS has highlighted one important 
mechanism for inviting Americans to continue that support: an 
endowment. The action item states:

  <bullet> Engage the power of philanthropy to provide legacy support 
        for the NPS both nationwide and at the individual park level. 
        To do so we will develop a $1 billion National Park Service 
        second century endowment campaign working in partnership with 
        the National Park Foundation and national park Friends Groups.

    This goal presents an opportunity for the Foundation to work 
collaboratively with the NPS and Friends Groups to assess the 
feasibility of a substantial endowment campaign. It also provides a 
challenge to think beyond the traditional definition of an endowment 
and instead consider the potential for an umbrella for a range of 
restricted and unrestricted funds, capital campaigns and fundraising 
initiatives. The NPS and the Foundation are now beginning the 
conversations, planning and due diligence necessary to launch such an 
effort. Our organizations will explore how to create a movement in 
support of national and local parks endowments that would complement, 
rather than compete against, one another.
    The Foundation supports the NPS goal of creating for future 
generations a long lasting source of support to ensure that our parks 
are protected. An endowment, or constellation of national and local 
endowments, ensures continuity in programming during periods of 
financial uncertainty and changing times. As a supplemental financial 
support to normal appropriations, an endowment would provide the 
national parks with a perpetual funding stream that would allow park 
leadership to thoroughly plan and implement multi-year programs.
    A second century endowment is a legacy for the current generation 
and a benefit for future generations. Those who lead the Foundation, 
Friends Groups and the NPS realize that the actions they take today in 
establishing an endowment will be a long-term strategy to position the 
parks for future success. An endowment will provide donors with a 
maximum return on their investment. In a sense, their gifts to our 
national parks live on in perpetuity, contributing to the purpose for 
which they were intended.
    A second century endowment, and the other forms of private 
philanthropy that help support the NPS, will only be successful when 
donors have faith that their government is doing everything it can to 
ensure these special places will remain preserved and protected for 
future generations.
    A second century endowment has the opportunity to benefit from the 
substantial transfer of trillions of dollars of wealth from baby 
boomers to their children, causes and charities. Our national parks 
have demonstrated for generations that they are worthy of philanthropy, 
and they have used this private support collaboratively with their 
partners to become centers of education, science, history, recreation 
and conservation.
                               conclusion
    The state of our parks at the Centennial Celebration in 2016 will 
say a lot about our priorities as a nation. Through A Call To Action, 
the NPS has pledged its own commitment to transform itself to meet the 
needs of the American people in its next century. As its 
Congressionally established partner, the Foundation is ready to help 
the NPS achieve its goals.
    Opportunities for partnership and philanthropy must be central to 
the future of our national parks. The Foundation is confident this can 
be accomplished in a manner that empowers local partners to be 
successful and helps national programs extend the benefits of 
philanthropy to all parks. Partnership and philanthropy are critical to 
create new opportunities for more of the public to relate to their 
parks and to generate the creativity and innovation the NPS recognizes 
in A Call To Action that it will need.
    Thank you, Mr. Chairman, for your ongoing support of America's 
national parks and for allowing me the opportunity to report on the 
important role philanthropy plays in supporting the noble mission of 
the NPS.

    Senator Udall. Thank you, Mr. Mulholland.
    Mr. Morris, the floor is yours.

     STATEMENT OF JASON MORRIS, EXECUTIVE VICE PRESIDENT, 
                NATUREBRIDGE, SAN FRANCISCO, CA

    Mr. Morris. Mr. Chairman, Mr. Ranking Member, thank you for 
the opportunity to appear before the subcommittee to offer our 
perspective on the National Park Service Call to Action report. 
NatureBridge commends Director Jarvis and the National Park 
Service for developing an action oriented report that brings 
together the best thinking from a decade of reports and 
commissions. As the report explains there are benefits to 
schools, communities and to society at large. I will focus on 
the greater good with reflections on these 3 key issues.
    First, how can we provide meaningful National Park 
experiences for 25 percent of America's schoolchildren?
    Second, how can we create the next generation of stewards, 
career professionals and engage citizens?
    Third, how can we overcome the current barriers to 
partnerships?
    As a 40 year partner of the National Park service, 
NatureBridge is uniquely suited to help the Park Service 
succeed in its goals for the next century. Our mission is to 
inspire personal connections to the natural world and 
responsible actions to sustain it. We bring more than 40,000 
young people and teachers to the parks annually through our 
residential field science education programs. We are proud to 
have introduced almost one million students to the wonder of 
our National Parks, but there are 52 million school aged 
children in this country.
    So how do we reach more students? NatureBridge supports 
changes that will connect our schools to our Nation's best 
classrooms, National Parks. We have 3 suggestions.
    First, continue working across the Administration. With the 
Associate Director for Interpretation and Education, the 
National Park Service can collaborate with counterparts at the 
Department of Education. We commend this outreach and ask that 
partners be engaged to deliver programs that are well aligned 
with cross departmental goals.
    Second, work across congressional committees. Our Federal 
education laws, specifically the Elementary and Secondary 
Education Act should recognize organizations like ours as 
eligible partners so that schools can use the funding they 
receive for National Park based school programs.
    Third, ensure that private sector resources are leveraged. 
We applaud the National Park Foundation on the initiative to 
fund transportation and to create an endowment. While 
educational opportunities will compel philanthropic support, 
the private sector cannot do this alone.
    All of these suggestions are focused on introducing more 
students to National Parks. But how do we extend these 
experiences to create the next generation of engaged citizens 
and career professionals.
    I have an example to share. Virginia Delgado made her first 
connections to the natural world as a sixth grader at 
NatureBridge's Golden Gate Program. Virginia later became a 
team mentor and taught at our summer education programs. In her 
own words, ``At NatureBridge, I got hooked.'' She is now 
pursuing a career in environmental policy so more students from 
underserved communities can have this opportunity.
    So how do we all join Virginia's cause? We must work as a 
community of program providers to set young people on the path 
to become stewards in their communities and in their careers. 
With the action item on the Class of 2016, we recommend the 
Park Service do just that. We recognize that the National Park 
Service cannot accomplish actions alone and that partnerships 
are essential. However, the barriers to successful partnerships 
are significant.
    So how do we overcome these barriers? We fully support the 
National Park Service goals in the enhancing the professional 
and organizational excellence section of the report. 
Unfortunately those goals are not evident in the proposed 
actions.
    We recommend the following.
    First, the Career Academy. Partners should be engaged in 
trainings that focus on how non-profits and government agencies 
operate. We recommend that partnerships be one of the 12 fields 
in the Career Academy.
    Second, cooperative agreements. We are not vendors and 
considerations around streamlining cooperative agreements for 
program partners should not be lumped in with those of vendors.
    We have some additional recommendations on partnerships 
that we have included for the record.
    We look forward to working with the National Park Service 
and other non-profit partners to overcome these barriers. We 
are confident that we can move forward together. NatureBridge 
is inspired to do more everyday by the beaming faces of the 
students we serve and by the teachers who organize bake sales 
so that their students can experience our programs in National 
Parks.
    We know that our programs and our talented educators are 
only part of the equation. The other part is the power of place 
embodied in our National Parks. We hear the Call to Action 
everyday and we are ready to answer it.
    Mr. Chairman, Mr. Ranking Member, this concludes my 
prepared remarks. I'd be happy to answer any questions that you 
have. Thank you for considering our views.
    [The prepared statement of Mr. Morris follows:]
     Prepared Statement of Jason Morris, Executive Vice President, 
                    NatureBridge, San Francisco, CA
    Mr. Chairman, thank you for the opportunity to appear before the 
subcommittee to provide our perspective on the National Park Service's 
recently released report ``A Call to Action: Preparing for a Second 
Century of Stewardship and Engagement.''
    NatureBridge commends Director Jarvis and the National Park Service 
for developing an action-oriented report that brings together the best 
thinking from a decade of reports and Commissions. The report does not 
start over but instead focuses on moving forward through concrete 
actions. I recognize that many of these actions are appropriately 
focused on preparing the agency for a second century. As the opening 
section of the report explains, there are broader benefits that will 
come from undertaking these benefits to schools, communities, and 
society at large. I will focus on that greater good with reflections on 
three questions:

          1. how to provide meaningful national park experiences for 
        25% of America's K-12 schoolchildren
          2. how to create the next generation of stewards and career 
        professionals
          3. how to overcome the current barriers to partnerships

About Us
    Founded in 1971 in Yosemite National Park, NatureBridge has been 
working in partnership with the National Park Service for 40 years. 
Ours is a history of mutually beneficial collaboration. Indeed, we are 
excited about the impact we have on the lives of youth through our 
partnership with the National Park Service.
    NatureBridge employees 180 people in three states; primarily field 
educators who deliver what we have dubbed the ``Wow! moments'' for the 
students and teachers who participate in our programs. Our mission is 
to inspire personal connections to the natural world and responsible 
actions to sustain it. We currently operate residential campuses in 
Yosemite National Park; Golden Gate National Recreation Area; Olympic 
National Park; and Santa Monica Mountains National Recreation Area. In 
2012 we will be conducting a demonstration program at Prince William 
Forest Park in Virginia and we are excited to be working with the 
National Park Service on this new venture. And, since 2009, 
NatureBridge in conjunction with the National Military Family 
Association has hosted military families participating in the Operation 
Purple Healing Adventures program, giving veterans and their families a 
chance to reconnect.
    We serve more than 40,000 participants annually through field 
science, youth leadership and teacher training programs. We are a fee-
based program and we fundraise to provide scholarships to 35% of our 
participants. In looking at the past three years alone, NatureBridge 
has served schools from 19 states including 49 of the 53 California 
congressional districts, all 9 of the Washington congressional 
districts, and all 5 of the Oregon congressional districts. As we 
prepare to celebrate our 40th anniversary, we are approaching one 
million students served through our programs.
    While we are proud of one million, there are 52 million school-aged 
children in this country who would benefit from programs like ours. We 
are one of about a dozen residential environmental education programs 
operating in national parks and our combined best efforts are just 
scratching the surface.
    So, how do we scale to provide meaningful national park experiences 
for 25% of America's school children as called for in the report?
    We recognize that there are several strategies contemplated in this 
action item but there are some efforts that will benefit all proven 
program providers. Whether you are talking about field-science programs 
like ours or history and civics in our national parks, NatureBridge 
supports making systemic changes that will connect our schools to our 
national parks, our ``nation's best classrooms.'' We have three 
suggestions on this front.

          1. Continue working across the Administration.--With the 
        first-ever Associate Director for Interpretation & Education, 
        the National Park Service is able to engage counterparts at the 
        Department of Education. We commend this outreach and ask that 
        partners be engaged where they can deliver, extend, or 
        implement programs that are well-aligned with cross-
        departmental goals.
          2. Work across Congressional committees.--As we work to 
        reauthorize our federal education laws, specifically the 
        Elementary and Secondary Education Act, we should provide 
        clarity so that organizations like ours are recognized as 
        ``eligible partners'' under the law. This will ensure that 
        schools can use funding that they receive for national park-
        based student programs and teacher training. Other legislative 
        efforts include Senator Reed's ``No Child Left Inside'' 
        legislation. We would like to thank members of the Committee 
        who have co-sponsored that legislation.
          3. Ensure that existing resources are preserved.--There is 
        modest funding, $10 million per year, for environmental 
        education programs in the EPA budget. We must ensure that this 
        funding is not cut as contemplated in the House Interior 
        Appropriations bill. We applaud the collaboration with the 
        National Park Foundation and other partners to provide 
        transportation support for 100,000 students each year. This is 
        desperately needed as transportation costs are a significant 
        barrier for many schools. We also support the $1 billion 
        endowment campaign and feel certain that educational 
        opportunities will compel philanthropic support. However, the 
        private sector cannot do its part only to see the modest amount 
        of federal funding for environmental education cut from the 
        budget.

    All of these suggestions are focused on introducing more students 
to national parks but how do we extend the experiences to create the 
next generation of stewards and career professionals?
    The report talks about creating deep connections between a younger 
generation and parks through a series of diverse park experiences 
offered in collaboration with education partners and youth 
organizations. The described outcome is to create a pathway to 
employment with the NPS, with a focus on diversifying the workforce. 
Our programs provide these deep connections every day and we know that 
we are achieving the intended outcome. A few years ago, we gave a 
presentation at a National Park Service forum and after the 
presentation four Superintendents in the room stood up and said that 
they had been through our programs and that it impacted their career 
choices.
    A student from our Yosemite Summer Research Institute writes, ``It 
was this program that showed me my love for science. I hiked over 50 
miles total with 40 pound pack; everyday was incredibly challenging, 
but I've never felt more accomplished. I didn't realize how tedious 
science really is, and this showed me not only what it is really like, 
but that I can do it and because of this trip I've decided that a 
career in science is what I want to pursue.''
    Another student, Virginia Delgado, made her first connections to 
the natural world at our Golden Gate campus in the 6th grade. She came 
with her biology club and in her own words, ``got hooked.'' She is now 
pursuing a career in environmental policy and urban planning and is 
committed to seeing that more students in low-income areas, like the 
one she grew up in, have the same opportunity.
    So, how do we all join Virginia's cause? One program provider will 
never excel in providing all of the experiences from first exposure to 
education to stewardship to career. We offer two thoughts:

          1. Connect the experiences.--The report contains separate 
        actions that talk about first experiences, deep connections, 
        diverse experiences, new audiences, and new locations. The 
        action focused on adopting a class of 2016 graduates at all 
        national parks has the potential to connect these experiences. 
        Proven partners should be included in developing and delivering 
        the ``fun, educational, and engaging activities culminating in 
        the NPS Centennial in 2016'' but we should not stop in 2016. 
        The next five years are should be just the beginning of a 
        program for the second century that can have profound impacts 
        on young people from all parts of the country and all 
        demographics.
          2. Cross promote.--As a community of partners that provide 
        experiences along this continuum, we must cross promote. 
        NatureBridge will do our part to bring the community together 
        through our privately-funded field building initiative.

    Everything in my remarks thus far, and indeed the Call to Action 
itself is based on recognition that the National Park Service cannot 
accomplish all of these actions alone and that there is a shared vision 
between the Service and its partners. While we are certain that we have 
the shared vision, we are also certain that the barriers to effective 
and sustainable partnerships have not evaporated with the release of 
this report. I would like to turn my attention to the question of:
How to overcome the current barriers to partnerships?
    NatureBridge is looking to strengthen an already rewarding 
partnership with the NPS. We seek to advance our common mission and 
develop a closer working relationship. Our testimony is offered in the 
spirit of wanting to move forward with these actions and a need to 
leverage increasingly scarce resources.
    We fully support the National Park Service goals in the Enhancing 
the Professional and Organizational Excellence section of the report 
to:

  <bullet> develop and recruit NPS leaders at all levels with the 
        skills to work with partners
  <bullet> build a more flexible and adaptive organization that 
        encourages innovation, collaboration, and entrepreneurship
  <bullet> modernize and streamline NPS business systems

    Unfortunately, those goals are not evident in the proposed actions. 
We would like to highlight two actions where the full range of partners 
and their perspectives will need to be considered, and possibly 
directly engaged, to ensure success:

          1. The NPS Career Academy.--We recommend that Partnerships be 
        one of the 12 career fields in the NPS Career Academy. The 
        cultural differences between government and nonprofits are 
        often a barrier to effective partnerships. Understanding this 
        is a key for both the NPS and their nonprofit partners. 
        Partners should be directly engaged in trainings that focus on 
        how nonprofits and government agencies operate, and how to 
        bridge the gap. NatureBridge would gladly participate in this 
        type of training.
          2. Cooperative agreements.--Cooperative agreements impact 
        more than the buying power of national parks. From our 
        perspective they impact mission delivery. We are not vendors 
        and would not want considerations around streamlining 
        cooperative agreements for program providers to be lumped with 
        those of buying offices as implied by the report.

    The following are additional recommendations on partnerships that 
speak to modernizing and streamlining NPS business systems.

          1. Difficulty of Completing Legal Agreements.--The increasing 
        complexity of public/private partnerships has resulted in 
        Agreements (Cooperative, Fundraising, etc.) that are 
        overreaching and unworkable. The staff time and financial 
        resources spent on reviewing and redoing agreements is 
        frustrating and wasteful, can take several years to complete 
        and in the end fosters a climate of legal adversaries rather 
        than partners.
          The process of reviewing agreements is highly centralized; 
        drafts acceptable to the Park or the Region may be extensively 
        questioned by the Washington Support Office (WASO), which can 
        at times seem disconnected from the field. ``No risk'' 
        partnerships do not exist and should not be the legal bar that 
        is set.
          For example, our Yosemite Institute has operated under a 
        series of agreements with the NPS since 1971, but in 2010 
        questions from WASO about the NPS's legal authority to allow us 
        to enter into agreements has caused extensive delays. Our most 
        recent experience with the Fundraising Agreement for our 
        proposed new Environmental Education Center in Yosemite 
        National Park is a perfect example of what is not working. We 
        first received a 20 page draft modeled from former partner 
        agreements that has now mushroomed into over 40 pages after 
        review by NPS solicitors.
          Meanwhile, at Golden Gate National Recreation Area, 
        NatureBridge's Headlands Institute campus is operating under 
        its fourth successive one-year extension of its general 
        agreement. After operating and providing programs for over 30 
        years in the Park, the partnership feels more like a landlord/
        tenant arrangement as we are now being asked to pay 
        approximately $140,000 annually in ``service district charges'' 
        to continue our programs in the Park.
          NatureBridge recognizes and values the uniqueness of each 
        park but is frustrated by our inability either to use 
        agreements signed in one park as a template for a similar 
        agreement in another park, or to negotiate a master agreement 
        that would cover NatureBridge operations in multiple parks.
          Suggestion: NatureBridge supports streamlined and 
        standardized partnership agreements. For example, the National 
        Park Service should consider ``proven partner status'' for 
        longtime partners that have a strong mission alignment and have 
        met their program and financial obligations for a number of 
        years. This would involve setting up a vetting system for new 
        partners and enabling them to use streamlined processes once 
        certain conditions are met and a proven track record is 
        established.

          2. Cost of construction in National Parks.--Last year the 
        National Park Service signed a Record of Decision approving 
        construction of a new environmental education center in 
        Yosemite National Park. The Center will be owned by Yosemite 
        National Park and operated jointly by NatureBridge and Yosemite 
        National Park. NatureBridge will raise more than $45 million 
        from private donors to pay for the center. It doesn't need to 
        cost this much.
          We have worked closely with the Park Service for 5 years 
        finalizing the EIS, the design and the construction drawings. 
        The process involves thousands of design decisions made by the 
        National Park Service that affect cost while as a partner we 
        are focused on ensuring that scarce resources have maximum 
        impact.
          Suggestion: A greater focus on value per dollar spent will 
        increase the power of public-private partnerships and allow 
        partners to apply increasingly scarce resources to program 
        delivery.

          3. Decision Making.--Decisions must be made more quickly. 
        This mainly has to do with the layering of agreements and 
        multiple written approvals that are time-consuming, cumbersome 
        and difficult to manage and enforce. Often it seems the delays 
        come from divisions within a particular park's management. 
        These kinds of delays are costly, frustrating and can inhibit 
        timely implementation and execution of partnership agreements 
        as well as program and fundraising activities.
          Suggestion: Approval processes should be streamlined to fit 
        the pace of business in the 21st century. This will improve 
        mission-related results for both partners and will save both 
        donor and taxpayer money.

    We look forward to working with the National Park Service and other 
non-profit partners to overcome these barriers to partnership and we 
feel confident that we can move forward together.
    The NatureBridge staff is inspired to do more every day by the 
beaming faces of the students we serve and by the teachers who organize 
bake sales so that their students can experience our programs. We know 
that our model and our talented educators are only part of the 
equation--the other part is the power of place embodied in our national 
parks. We hear the call to action every day and we are ready to answer 
it.
    Thank you for focusing on the future of our National Parks and what 
it means for our communities and our children, and for including 
NatureBridge in this hearing. I would be glad to answer any questions.

    Senator Udall. Thank you, Mr. Morris. I look forward to 
hearing more in the timeframe now where we ask some questions 
and receive some answers.
    Let me recognize myself for 5 minutes and then I'll 
recognize Senator Paul for 5 minutes after my 5. Let me start.
    Director Jarvis, your report has several themes. Again, 
congratulations on compiling your conclusions based on your own 
internal work, but also these other important seminal studies 
that have been published. The report has several themes and I 
think 40 different action items. What's the most important 
thing we should take away from the report?
    Mr. Jarvis. I think there, from my perspective, may be 2 
things.
    One, for the very first time, we are looking at all of the 
responsibilities that have been bestowed upon the National Park 
Service by the U.S. Congress and past Presidents to aggregate 
all of those for a vision for the second century. Everything 
from our Rivers and Trails Conservation Assistance program to 
our Historic Preservation Tax Act tax credit programs as well 
as the 395 units of the National Park System, all focused on a 
vision. It's a call for people to use a little bit of their 
discretion, a little bit of their authority to align that 
toward this common goal.
    I think the second is the endowment itself. We are a 
perpetuity institution on an annual appropriation. If you think 
about any other major institution in this country whether it's 
the Smithsonian or Harvard, they have an endowment that allows 
them to carry forward on programs, as Mr. Mulholland said, in 
times of austerity and it provides a point for giving from an 
extraordinary philanthropic American people.
    I think if we look back 100 years from now when we are 
facing our third 100 years, I think if you look back what 
action might have been one of the most important, the Second 
Century Commission said it was an endowment.
    Senator Udall. I want to just make an editorial comment, 
I'll move forward with my second question. I have joined forces 
with Senator Hatch to propose an unauthorizing Committee that 
would look at Federal programs that are perhaps duplicative or 
are not necessary anymore. I'm going to sit down with you, 
Director, and look at all the missions or the directives that 
you've received through the years from many Senators, many 
Presidents, many members of the House. It might be a useful 
exercise to look at harmonizing those.
    Some cases we may want to set aside one or 2 of the things 
we've asked you all to do. Because I know when you look at the 
broad suite of directives they're almost all well intentioned, 
but some of them may be beyond your means. But that's another 
conversation.
    I know this will upset Senator Paul, but you said you don't 
need any Federal funding to implement the Call to Action. Would 
you elaborate on this for the 2 of us?
    Mr. Jarvis. Recognizing that we are in a tough economic 
situation in this country, I know the Senate and the House are 
working diligently to find economies. I deeply believe the 
National Park Service is a great investment and we leverage 
what appropriated dollars we have. But I did not want to build 
an action plan from here to 2016 that was predicated on new 
Federal appropriations because that's probably just not going 
to happen.
    So the direction that I gave to the team was to build a set 
of actions that could be actually executed without new money, 
without new Federal money anyway. So that's really what there's 
no call here to appropriations in this document.
    Senator Udall. Mr. Mulholland, let me build on the 
Director's comments. A billion dollars is an ambitious 
undertaking. I admire the Foundation's commitment to putting a 
plan in place to pursue such a goal.
    Are you concerned that the endowment plan would negatively 
affect your other park fundraising programs?
    Mr. Mulholland. It's a good question. But, you know, when 
we look at the terms of endowment and we put a goal out there 
of a billion dollars. First of all we wanted to have something 
that would benefit the entirety of the Park System and 395 
units of buildings, a billion is an adequate goal. We look at 
this to be a long term campaign that would start now but, you 
know, build for a period of 20 to 25 years.
    So we do not see it impacting our current programs. Really 
look at it more for legacy, estate planning, it would be a big 
part of it when people transfer wealth to fund it.
    Senator Udall. As a former non-profit CEO I'm very 
intrigued with the way in which you laid out the creative ideas 
for the Foundation and for the endowment. I look forward to 
pursuing some additional questioning with you on that front.
    Let me recognize Senator Paul for his time.
    Senator Paul. Oh my goodness, you've come not asking for 
more money. I love it.
    I like the idea of the endowment. I have a suggestion. 
There's this guy I've been hearing about in the news, 
apparently he has a lot of money and he feels under taxed, 
Warren Buffett. You all should talk to him.
    With regard to how cost are attributed, what percentage of 
the annual costs of running the parks is able to come in 
through concessions and admission fees?
    Mr. Jarvis.
    Mr. Jarvis. Thank you, Senator. I'll give you it in hard 
numbers. We can run the percentage.
    We collect about $175 to $180 million in recreational fees. 
That's campground, entrance, user fees. Then we collect about 
another $100 million annually in franchise fees. So you're 
looking at about $250 to $275 million, somewhere in that 
neighborhood, in total fee collection in the National Park 
system right now.
    Senator Paul. Franchise fees is when someone puts their 
name on the entranceway or something or what's that mean?
    Mr. Jarvis. No, that's from our concessions.
    Senator Paul. OK.
    Mr. Jarvis. We have about 80 business operations.
    Senator Paul. Alright.
    Mr. Jarvis. Food, hotel.
    We are currently in negotiations for about 25 of those 
concessioners for new contracts and we expect those franchise 
fees, in many cases, to go up substantially. But I can't tell 
you right now what that would actually work out to be. So 
you're looking at, you know, the Park Service's total budget is 
about $2.8 billion. So you're looking at about 10 percent.
    Senator Paul. My second is sort of a suggestion. This might 
be a little off the wall but I've been trying to grow a giant 
Sequoia in Kentucky for years. I had some pretty good luck. I 
had one grow for about 7 or 8 years, about 12 feet tall, about 
this big around. But I always seem to have some blight.
    But the reason I bring it up is for an education. I think 
I'm fascinated by trying to grow a big tree in my yard. I think 
kids would be fascinated on Arbor Day. I don't know if people 
are against the spread of the Sequoia or something. But I think 
it would be a neat sort of a project around the country to get 
kids interested in the big trees or whatever.
    I've been out to Muir Woods which I think is a neat park as 
well. But I don't know, I saw one one time that's been growing 
in Northern Georgia for 150 years. It's like almost 200 feet 
tall. So they will grow.
    I believe that one time North America had giant Sequoias 
across North America, maybe, I don't know thousands of years 
ago. But I suspect there was some kind of blight that I don't 
know of. But if anybody knows about this can send me some 
information on the giant Sequoia and how I might get past the 
adolescent years.
    A lot of trees, I think the Chestnut and the Elm will grow 
for a while, the native ones. They're trying to get resistant 
ones to the blight. But I suspect that's what's happening to me 
is a blight somewhere in the maturity. But I've tried a couple 
times and I've not had success. But anyways, you're welcome to 
respond if you want.
    Mr. Jarvis. We would be glad to help you with that. As a 
matter of fact I think there are a number of places that do 
sell the giant Sequoias. But, you know, I'm sure they're a 
challenge on the east coast and in particular certain 
environments.
    I would mention that we have just developed a partnership 
with the American Chestnut Foundation to begin to replant the 
American Chestnut in the east. They have successfully cross 
bred back a 99 percent pure American Chestnut that is blight 
resistant. So this has been a great opportunity for us to 
restore this incredible tree in the east.
    But we'll help you with that.
    Senator Paul. Thank you.
    Senator Udall. Thank you, Senator Paul.
    Director Jarvis, I'd urge you to get back to Senator Paul 
as quickly as possible.
    [Laughter.]
    Senator Udall. Anything he's interested in, I'm interested 
in.
    Senator Paul. We don't want to have to subpoena that 
information on the Sequoia.
    [Laughter.]
    Senator Udall. Mr. Morris, your story is a powerful one. 
It's a great example of the American spirit of volunteerism 
which has been identified, for almost a couple hundred years. 
DeToqueville, the great French observer of American 1820s and 
1930s, noted Americans even in that era had a spirit of 
volunteering in their communities. But I'm really intrigued 
with all of the ideas you put forth.
    In the Call to Action the Park Service emphasizes the use 
of technology in outreach research and management. How are you 
using technology in the programs you provide the parks? In 
particular when you look at that 25 percent number that 
everybody on the panel thinks is realistic or at least a goal 
that we ought to embrace. I would have to guess part of that is 
going to be through technology that you're going to reach 
students.
    But please have at it.
    Mr. Morris. Thank you, Senator. Real quick for Senator Paul 
on the Sequoia piece.
    [Laughter.]
    Mr. Morris. You know, we use technology. We have this 
program called Sequoia-ology. We have the kids track the baby 
Sequoia trees in Yosemite National Park. Every week there's a 
different group of schoolchildren in Yosemite National Park. 
Every week there's a new sprout of a Sequoia tree and they map 
them using technology, using GIS technology and put it on a 
fixed place.
    Then the kids when they get back to their classroom can log 
in and watch the survival rate of those Sequoias and how they 
grow. Now they grow in a very small area in California. It's 
getting smaller all the time.
    So, you know, we're interested in the long term health of 
these trees over time. But that's just one example of how we 
use technology and engage kids at the local level and then 
extend it, you know, back into their classrooms. Then they can 
extend it to students who didn't get to visit Yosemite through 
one of our programs.
    Senator Udall. Why are they so limited geographically? My 
understanding the giant Sequoia has a much broader range along 
the Sierra Nevadas but the Redwood is more limited. I can 
understand that, some of that is coastal air and humidity and 
stuff.
    But what is it? Is there a blight that limits them or what 
limits them geographically to their growth?
    Mr. Morris. I'm actually going to defer that question to 
the Director and his scientists.
    [Laughter.]
    Mr. Morris. Either he can answer it or we'll get back to 
you with a specific answer.
    Mr. Jarvis. Yes. I'll take a shot at it though. I'll 
probably be dusting off my old biology background.
    As you well know, the giant Sequoias and the Redwood trees 
are very closely related. The Redwoods survive, as you astutely 
picked up, on the fog that comes in from the coast. That's why 
you get the tall coastal Redwoods.
    In the Sierras, I think you're absolutely right, at one 
time the giant Sequoias covered a much greater range. But now 
they are pretty much confined to one range of sort of a mid 
slope that provides the perfect amount of moisture, winter, 
coolness and summer heat that allows them to re-grow. They're 
also fire dependent. They have very thick bark. Fire goes 
through, they do fine. Their cones need to be burned in order 
to reopen and fire has been suppressed in much of the Sierras.
    We've brought fire back into the system in Sequoia King's 
Canyon and Yosemite. As a consequence we're getting 
reproduction there. But I think they're a pretty tough tree. 
They've been around a long time. Can probably persist in other 
areas.
    I think that that's one of the decisions we're going to be 
making is about where else trees like giant Sequoias can exist.
    Senator Paul. One final thing on my Sequoias. Mine always 
grew and stayed green at the top but was always was brown. The 
needles turned brown. I would trim them as long as I could 
reach them. It seemed to keep growing.
    But I think it always had some kind of blight in the very 
beginning that didn't seem like it was a stress from water or a 
climate. But I'm not positive. I, you know, don't know. But I 
really need to know this because I'm going to try again.
    Mr. Jarvis. OK. We're here to help.
    Senator Udall. I'm sure there are some of Senator Paul's 
political opponents that would be happy to light his yard on 
fire if it would help the Sequoia tree.
    [Laughter.]
    Senator Udall. Alright. Mr. Morris, why don't you continue 
in describing how you use technology? That was a wonderful 
example. But share some others with us.
    Mr. Morris. Yes. This is actually very timely. We're just 
about to pilot a partnership with National Geographic around a 
type of eco-monitoring technology called Field Scope.
    We're actually going to pilot this on the Elwah River in 
Olympic National Park where this past weekend Director Jarvis 
and a number of dignitaries were up there for the removal of 
the Elwah Dams. Now these dams have been there for almost 100 
years and have blocked, you know, salmon from going up and 
sediment from going down and a number of other things. Now that 
these dams are starting to be taken down we want to engage kids 
in real science projects.
    So this is information that the National Park Service is 
interested in, that NOAA is interested in and that scientists 
from universities from all over the world are interested in. We 
happen to have schoolchildren at the, you know, at the base of 
these dams, about 200 days a year. So we're going to start to 
use technology to monitor the environment as it is restored 
over time and be able to chart the progress that the river 
makes in terms of the ecology coming back, the salmon coming 
back, etcetera. Use this Field Scope technology that was 
developed through National Geographic to put that up online and 
then study it over time.
    That will allow not only the kids to engage in post trip 
research which is incredibly important to their learning 
ability. We know that kids retain much greater amount of 
information if they can do something with it in the weeks 
following their visits to a National Park. So after they leave 
Olympic if they're able to engage in this, in the data, in the 
science research that's happening over time and then next year 
look at how little brother and little sister found that river, 
etcetera, etcetera.
    So we hope to create kind of a longitudinal science study 
where a kid may only be there for a week. But they can be part 
of that science study throughout their formative years and 
ideally lead them into, you know, careers that are around the 
sciences and engage that next generation in some critical work.
    Senator Udall. I assume that this project and program would 
be using scientific monitoring technologies that would cover 
everything from the return of certain biota, to the fish 
themselves, to sediment levels, to any number of metrics tied 
to the water, to the activity on the site. Is that? Elaborate a 
little bit more if you'd like.
    Mr. Morris. That's absolutely correct.
    Senator Udall. Yes.
    Mr. Morris. We take our cue from the Park Service. The 
National Park Service creates the actual protocols and the 
science experiments that they would like to have data on and 
because we have children out there every day we're able to 
collect it in a rapid way and an ongoing way that doesn't cost 
the National Park Service any money. Through the use of 
technology we can actually collect legitimate data. Sometimes 
we're putting probes into streams and testing dissolved oxygen, 
nitrates, those types of things.
    Senator Udall. I assume you maybe would have miniature 
cameras onsite as well and you could have a series of 
photographs, today, next week, a year from now.
    Mr. Morris. Exactly. Photographic evidence and videos. On 
the human side of the equation we talk a lot about restoration 
of plants and rivers and salmon. On the human side of the 
equation, as Director Jarvis put in his report, we want to 
engage kids on an ongoing basis in National Parks.
    So if we use, you know, little video cameras and take 
testimonials of kids down next to a river, a 12 year old next 
to a river having a scientific experiment and put that up on 
the web and other kids from across the country can see, you 
know, someone who looks like them have a great opportunity and 
a transformational experience in a National Park. We're hoping 
that that will attract really the next generation to engage in 
these magical places.
    Senator Udall. That's very exciting to hear. That's the 
kind of reality TV that I would like young people to engage 
with. I won't mention other reality TV shows that are popular, 
but is it going to be the National Park Service TV channel or 
the NatureBridge channel or a coalition?
    Mr. Morris. I will defer to one of these guys. That's a 
terrific idea.
    Senator Udall. That's intriguing. I know you've got many 
more examples. We may have a chance to come back to some more.
    Action item 29 deals with the $1 billion endowment campaign 
and to help me better understand the proposal I'd like each of 
you to talk about your understanding of how the endowment would 
be funded and managed and a sense of how long it would take to 
raise the one billion. I know, Mr. Mulholland, you spoke to 
that. But I'll have everybody speak to that again if there's 
any additional information.
    Let me start with that question with Director Jarvis. Is 
that clear enough?
    Mr. Jarvis. Yes.
    Senator Udall. Just talk about your vision of the 
endowment.
    Mr. Jarvis. There's several aspects to the development of 
the long term endowment.
    First, in terms of Congressional action we believe that the 
interest that could be derived from our non-appropriated fee 
accounts should be taken to go to, at least a portion of the 
endowment.
    As I indicated to Senator Paul, we collect around $250 
million a year in non-appropriated dollars, fee dollars that 
sits in the Treasury account. The interest does not come to us. 
We feel that that would be a great start for the endowment at 
whatever the standard Federal T-bill rate is what would be spun 
off into beginnings of the endowment. That then could be 
leveraged by our partner here in the National Park Foundation 
to seek philanthropic matches to that to really begin the 
corpus of the endowment.
    Every fundraising effort in the National Park Service that 
is taken on by a friends group, whether it's the Golden Gate 
Conservancy or some friends of any National Park has to have an 
agreement signed by either the regional director or the 
director. It will be our intent in all future fundraising 
agreements require at least some money go into an endowment. 
That endowment can be managed by that friends group. We're not 
suggesting that all money be aggregated under the National Park 
Foundation.
    The goal is that in adding up all of the various endowments 
derived from the philanthropy that could be focused on Yosemite 
or on Golden Gate or the parks of New York or in the Foundation 
aggregate. We're not aggregating them but when you add them all 
up the goal is the $1 billion. So we're approaching this from a 
multiple directions that we're encouraging each of our friends 
organizations out there as they raise money for parks that they 
create an endowment for that park or for that program in which 
they are raising money through----
    Senator Udall. Director Jarvis could I stop you there.
    Mr. Jarvis. Yes.
    Senator Udall. So for example and Mr. Mulholland I want to 
call you by your first names because I know you both so well. 
But Mr. Mulholland may have to clarify for me. But I think it's 
the Friends of Rocky Mountain National Park, when they solicit 
their donor base the idea would be that depending on what the 
campaign was, if it was a general operating or support for the 
park, that a percentage of that would go into the endowment 
which would be a part of their endowment which would be a part 
of the larger endowment.
    You would reach agreement with them that that makes sense 
going forward.
    Mr. Jarvis. Yes.
    Senator Udall. That any long term organizations have an 
endowment for a profit company. Of course has a balance sheet 
on which they hold cash and assets that are a form of an 
endowment, a non-profit or a government entity, unique like the 
Park Service has every reason to have a similar kind of fund 
like that.
    Mr. Jarvis. Exactly.
    Senator Udall. Is that how it would work?
    Mr. Jarvis. Exactly, sir. I think we've been remiss in the 
past in major fundraising efforts than even some that I've been 
directly involved in like the USS Arizona where we didn't 
require at least a portion of it to go into an endowment.
    Senator Udall. Yes.
    Mr. Jarvis. Where we would have a very strong capital 
campaign and then no endowment.
    Senator Udall. Yes.
    Mr. Jarvis. The goal here is through these agreements we 
would require at least some percentage to go in its endowment. 
Again, not that we're going to take the money from the Friends 
of Rocky Mountain and give it to the Foundation. We want them 
to develop it. But we get to count that toward the 
$1,000,000,000 goal.
    Senator Udall. I interrupted you. I know you were moving to 
a couple of other points perhaps you wanted to make on how this 
would be structured or had you worked through your list?
    Mr. Jarvis. The goal--as our primary legislatively created 
partner, the National Park Foundation, this larger endowment 
that we expect to build over time through the reinvestment and 
match of the interest off of our non-appropriated funds we 
would expect the National Park Foundation to be the principle 
manager of that.
    We would also want to prescribe how that endowment, any 
spin off from that endowment would be used. It would not just 
be going to general operations. We would also hope that the 
U.S. Congress would not to look to offset our current 
appropriations with any revenues or the endowment itself.
    Senator Udall. All very important points well made and ones 
that I find very compelling.
    Mr. Mulholland, did you want to speak to the question as 
well?
    Mr. Mulholland. Yes, Mr. Chairman. First of all, public/
private partnerships work.
    Senator Udall. Yes.
    Mr. Mulholland. Most recently we've seen that with the 
fundraising with the Flight 93 National Memorial, $60 million 
campaign.
    Senator Udall. Congratulations, everybody.
    Mr. Mulholland. Thank you. Where, you know, the government 
provided half of that and the private sector provided the other 
half. We find that dynamic works very well.
    When we look, as the Director said here, I'm creating an 
endowment campaign for the National Parks. As he said it will 
be a series of endowments. There are places like Rocky Mountain 
National Park that have very sophisticated and well run Friends 
groups that are very good fund raising organizations.
    Senator Udall. Does every park unit have a Friends group?
    Mr. Mulholland. No, over the 395 units of the National Park 
there's approximately 175 units that have Friends groups and 
today of that 175 we find that there's approximately 50 that 
really contribute a significant amount of money back to the 
park.
    One of the things the Foundation is very focused on is not 
only raising money nationally, but working with the existing 
Friends groups, the aspirational Friends groups and those parks 
that could support a Friends group in helping build that local 
fundraising organization. As we move forward as we feel these 
Friends groups, this private fundraising at the local park 
level is going to be very important.
    You know, and then as we take that into an endowment we 
think a coordinated campaign is going to be very important. 
There are individuals out there that have a very good 
relationship with the overall spectrum of the National Parks. 
They've had many good experiences and they might be more apt to 
donate to the overall system. There are people that have or 
feel solely focused on Rocky Mountain National Park or Yosemite 
and that's where they want their focus to be and we want to 
encourage that.
    Then there's other parks that just, by their scope, nature 
or location may not be able to support a Friends group because 
of their remote nature. That doesn't mean they shouldn't 
benefit from private philanthropy. So we want to work that, you 
know, manage that as well. That's the role the Foundation could 
play.
    We see this as being a coordinated effort. We see the 
billion dollars as a starting point, not an ending point. If we 
do this properly--here we are in 2011, perhaps 60 years from 
now people will be sitting there in this very room or 100 years 
from now and there will be several billion dollars or tens of 
billions of dollars in an endowment because of the actions that 
we're taking today.
    Senator Udall. Success breeds more success.
    Mr. Mulholland. It's building blocks.
    Senator Udall. Yes.
    Mr. Mulholland. As you know the anticipation of this starts 
with dollar one. It starts with the first dollar raised, then 
the second dollar. We felt it was very important, as we talk, 
that, you know, to have an initial goal. We feel a billion is a 
sizable number. It's a reasonable number. It's an appropriate 
number when you look at the magnitude of the National Parks.
    So again, we look at that as a starting point to where we'd 
like this endowment to go. But many of the things--what we see 
the opportunity going forward is, we look at NatureBridge. 
They're running programs year over year.
    We want to do things that begin to create lifelong 
relationships with the National Parks. We want to, you know, do 
things that have continuity, you know, from age one through the 
entirety of a person's life. We also want to do things that--in 
all aspects whether it's programmatic or fundraising that 
become repetitive and that the National Parks become core to an 
individual's philanthropic giving.
    Senator Udall. Did you speak to the units that don't have a 
Friends group and potential effort to set up groups in those 
areas? Would that be something that as you further develop this 
plan that----
    Mr. Mulholland. Yes.
    Senator Udall. Given that that would take some time and 
focus but that there will be utility I think as well.
    Mr. Mulholland. One of the things we're doing, you know, 
independent but you add it to the endowment is we are very 
proactive investing Foundation funds into working with the 
Friends groups to help them do what they do better. That then 
to take those groups, who are very good at what they do and 
bring them to the table and help them with the smaller 
aspirational groups. You know the overall park community, the 
Friends group community, those who are involved in philanthropy 
work together as a group.
    We work to help at a local park level and then to, you 
know, help those parks that are aspiring to, you know, create 
their own individual organization. But now we've got to be 
realistic, not all National Parks or units of the National Park 
are going to justify a Friends group. It takes people. It takes 
committed people. It takes people with passion.
    But it doesn't mean they'll be overlooked. That's the role 
that the, you know, National Park Foundation plays on a 
national level.
    Senator Udall. Yes, and you never know over time when that 
unit triggers a connection on the part of somebody who may live 
at a far distance, but nonetheless decides to take that on as a 
cause.
    Mr. Mulholland. That's exactly----
    Senator Udall. I'm sure there are examples of that already. 
I know there are in Mesa Verde, for example. There are a number 
of people in the Phoenix area that are huge supporters of Mesa 
Verde National Park and what it represents and so on around the 
country.
    Mr. Mulholland. Kirk Buckholtz, who you know.
    Senator Udall. I know well.
    Mr. Mulholland. Rocky Mountain National Park votes, you 
know, is very generous with his time across the system in 
working with aspirational groups. We see that with the leaders 
of the larger groups.
    Senator Udall. Sounds like you're going to have to quit 
your day job and take this on.
    [Laughter.]
    Mr. Mulholland. We're totally committed.
    Senator Udall. Mr. Morris, do you want to comment on the 
endowment plan from your perspective? I know you did in your 
commentary. You had some great ideas.
    Mr. Morris. Yes, sure.
    Senator, I feel that the notion of all boats rising is the 
right approach. Mr. Mulholland talked about how there are 
donors that may want to give to a local park or may want to 
give to the system as a whole. What that does is that 
strengthens the backbone of the entire system.
    NatureBridge has taken that same approach. We're doing that 
with our colleague organizations in the non-profit sector to 
try to build the field of education in the outdoors as a 
legitimate field. It's hard because there's a number of non-
profits who are generally disparate. Efforts like this, 
initiatives like this really bring people together around a 
common vision. All boats can rise.
    It's not about competition for a limited amount of dollars. 
As you mentioned success breeds success. That's the attack 
we're taking, you know, as a budding national organization and 
aspiring to work with our colleagues across the country to make 
these things happen.
    Senator Udall. I think it's a very helpful conversation if 
you all could stay just a little bit longer. I've got a few 
more questions.
    I wanted to come back to Mr. Mulholland and talk about the 
goal of reaching 25 percent of all school aged children through 
actual and virtual field trips. I understand that the 
Foundation provides a very vital service or funding stream, I 
should say, with transportation grants to get students to 
parks. Sometimes those of us in position of leadership don't 
think about it, actually getting people there. You don't do 
that for free.
    What other efforts have you undertaken to encourage young 
people to get outside and into the National Parks?
    Mr. Mulholland. You know the biggest--we'll start with 
that, how's that?
    What we see with today's youth, the dynamic is different. 
You know, today's youth spends a lot more time indoors. You 
know, studies have shown they spend 7\1/2\ hours of each day 
tethered to an electronic device. We look today there is a 
health and obesity issue with our children. They are lacking in 
education as far as their American history and science.
    When we look at National Parks that we look at these as, 
you know, wonderful places, wonderful classrooms for play space 
learning, experience based learning. Part of it is we've got to 
introduce them to the parks. When we were young someone took us 
to a park. That's how we developed our relationship with it.
    You know, that dynamic has changed today. You asked about 
technology earlier. You know, what Mr. Morris is doing here and 
really the first point of introduction has to be through the 
electronic medium in many cases is for those that don't have an 
advocate, a parent, a guardian, somebody that's going to 
introduce them to the park, is taking it to them electronically 
and introduce them that way.
    By way of example, what we're doing in partnership with the 
Park Service on Saturday is Worldwide Day of Play with 
Nickelodeon. Nickelodeon is going to go dark for 3 hours, 
nationwide. They're the No. 1 children's channel in the United 
States. They've been putting a message on their channel all 
summer long, you know, promoting Worldwide Day of Play with the 
messages, get active, get outdoors, go visit a National Park.
    So they'll be emanating live from the Ellipse in 
President's Park here on Saturday. There's huge power in that. 
So, you know, going to your question.
    Some of the things we're doing is reaching out to 
organizations that already have the audience. In this case, 
Nickelodeon has a large viewership of children. Other things we 
do is work with organizations like NatureBridge, that, you 
know, are working with children year in and year out that are 
very good on the educational aspects of it.
    We've talked about transportation. You know, the other 
thing is is we have the parks and once we make this 
introduction we have school buses, sit in school lots that they 
don't have the money for the gas or the driver to take the 
field trip. These are simple things.
    As we're moving forward we're creating campaigns that are 
sustainable that people in the private sector, you know, they 
can grasp onto that or a transportation program to get kids 
into the parks, 100,000 kids, it's a measureable goal, you 
know. It's appropriate. So we have transportation funds.
    We're looking at other educational initiatives to introduce 
kids to parks. What we want to do is to begin to develop 
lifelong learning. That these programs work throughout the 
entirety, while they're in school starting with elementary 
school, junior high and high school and into adulthood.
    Senator Udall. For the record I want to clarify that I 
misspoke earlier. I don't want you to quit your day job. I just 
think you're going to take on a night job and a weekend job to 
get all of this done.
    [Laughter.]
    Mr. Mulholland. I accept the challenge.
    Senator Udall. Good.
    Director Jarvis, let me turn to a topic you and I have 
discussed at great length and it ties to action item 23 which 
discusses the increasing use of renewable energy in the parks. 
I fully agree with that goal particularly because it will lower 
energy costs in the long term.
    Talk a little bit about your plans in that regard, 
particularly given the budget constraints that we face, and fit 
in there too some discussion about energy efficiency, not just 
renewable energy production, but energy efficiency which I know 
is a part of the overall approach.
    Mr. Jarvis. Thank you, Chairman. I appreciate that 
question. It's near and dear to my heart as well.
    We just completed within the National Park Service our 
Green Parks Plan. We set the goal, I think, it's by 2012 we 
will have completed our assessment of all the carbon footprints 
in terms of every park. In terms of looking at its overall 
operation, everything from fleet to fuel to what type of energy 
they're using, to lighting and really assessing how we can 
significantly reduce our overall carbon footprint.
    As you well know in some parks we have the opportunity to 
perhaps install large solar arrays. Then in others we don't. 
It's because of either its cultural landscape or the natural 
resources would really prohibit that. So we're working on 
agreements with utility companies.
    Senator Udall. It would be PPAs or power purchasing 
agreements, long term?
    Mr. Jarvis. Yes, absolutely, Southern California Edison is 
one that we're currently negotiating so that perhaps we can 
participate as a partner in the development of solar arrays on 
other public lands or on military bases that then we can get an 
offset for our overall use within the parks. We've set the 
standard for all new construction at a minimum of LEED Silver. 
We're actually achieving LEED Platinum in a number of cases. 
Lassen Volcanic National Parks', new visitor's center, the 
Eielson Visitor's Center in Denali are both platinum facilities 
as well.
    We're also working with the historic preservation community 
in establishing sort of a lead analog to historic preservation 
because there's a great deal of embedded energy in our many, 
many historic structures. But we also have to meet the 
Secretary's Standards for Historic Preservation as we go 
through that as well.
    We're experimenting with biofuels. We are reducing overall 
fleet to the appropriate size vehicles. We are looking to all 
types of renewable materials, sustainably harvested, green type 
products. Probably most important is that we're interpreting 
all of that information. We're providing that to the American 
public as a part of our overall interpretation and education 
programs as well.
    Mr. Jarvis. If I may I'd like to throw my hat in on the 
technology side as well.
    Senator Udall. Please do.
    Mr. Jarvis. There's a huge opportunity in the National 
Parks to provide students virtual experiences over the net. We 
have enormous content on our side. We have great interpreters. 
We have great places. The technology already exists for 
interpreters to literally stand in the resource and talk to 
students and take questions.
    We can do that right now. We could actually do it 
underwater at Channel Islands. We have live, in the kelp 
forest, interpreters that can actually answer questions through 
their mask from students in the classroom.
    Senator Udall. That's phenomenal. I want to have a chance 
to experience that myself.
    Mr. Jarvis. We can set that up. In fact when we launched A 
Call to Action and took questions from employees, one of the 
questions came from underwater at Channel Islands on video. 
When that kind of connection can be made, students can actually 
participate directly like that.
    We'll be able to use the support of the National Park 
Foundation to get kids from school. We'll be able to connect 
through NatureBridge for residential programs. Through those 
kinds of programs right now we're reaching about 5 percent of 
the public school kids, K through 12 now.
    So it's a reasonable goal to go to 25 percent. But a lot of 
that is going to be through virtual connections. We are 
partnering with the Department of Education on a lot of this 
work as well.
    So being green for the National Park Service saves us 
money. It reduces our impact on the night sky. It's a great 
example of how a Federal agency can lead and sustainability.
    Senator Udall. What's not to like about that list? Thank 
you for your leadership.
    You mentioned the Channel Islands. I will take a moment to 
share a story, which I may have to further clarify for the 
record with my cousin, Tom Udall. But I know that my Uncle 
Stewart when he was Interior Secretary, I think it would have 
been at, is it Buck Island in the Virgin Islands? Is the 
national monument there? Uncle Stewart was called to dedicate 
that first underwater trail that's there. But he didn't mention 
to anybody that he'd never had a mask and snorkel and fins 
explained to him. He was a desert kid.
    Evidently when he went down actually to cut the ribbon, he 
claimed that the Park Service half drowned him before he got 
the job done. But I'm sure you've got staffing today equal to 
all the challenges you face and the Secretary face. Stewart 
loved to tell that story. Talk about the diverse nature of our 
National Parks and our Park units. But he'd be very intrigued 
by that were he with us today.
    Let me end with a question to Director Jarvis and then to 
Mr. Morris and then Mr. Mulholland, if you want to weigh in as 
well. Action 2, Action Item Two, I should say, talks about 
creating a pathway to employment with the Park Service starting 
with educational experiences with a special focus on minority 
youth. Would you all speak to whether you have the necessary 
Federal hiring authorities to make this a reality. Then Mr. 
Morris, if you'd elaborate more on the educational experiences 
provided by groups like yours relate to future employment. I 
think this is very, very crucial.
    Before I let you answer I want to give a shout out to 2 
National Parks in Colorado I visited or Park units I should 
say. I don't want to get ahead of the good people of Western 
Colorado. Colorado National Monument is helmed by Michele 
Wheatley in an acting role right now. She has done wonderful 
work reaching out to the local community and bringing the young 
people from Mesa County and the surrounding counties into 
Colorado National Monument for very powerful experiences.
    In addition I was in the Great Sand Dunes in August. 
There's a similar effort underway to reach out to those 
communities in the San Luis Valley. Now, Director, I know you 
know this, but I couldn't have been more proud of the staff 
there and the work they're doing. All the extra time they were 
putting in. They certainly weren't being paid by the hour.
    But it was marvelous. It was inspiring. One of the 
experiences that I had was a young ranger, who had come up 
through the program, is now working for the Park Service, 
attempted to show me how to atlatl which is an advanced form of 
a spear that Native people used. It was a lot of fun and it was 
very educational. I very much saw how you could draw young 
people into that kind of physical challenge but in the process 
of facing that challenge you learn a lot more about yourself, 
about the people that live there, about the wildlife. Those 
were 2 very meaningful experiences I've just had in this year 
through my own interaction with the Park Service.
    So, you've probably forgotten the question I asked you 
because I started reminiscing here. But yes, please speak to 
your vision and then we'll turn to Mr. Morris and his 
recommendations.
    Mr. Jarvis. Thank you, Chairman. Thanks for that shout out 
to those 2 great Colorado parks. They are doing great work.
    I think they're examples of the kind of work that's going 
on around the country today to reach out to communities to 
connect young people and create a lifelong connection to the 
outdoors. The fantastic experiences like practicing with an 
atlatl is one of those. We really believe, and I deeply believe 
and I know these 2 gentlemen that are with me deeply believe 
that an investment in young people is going to reap benefits 
well into the future.
    Your specific question about whether we have the right 
authorities in place is a great question. We can connect these 
kids and we can show them what an extraordinary opportunity 
lies before them perhaps with a career in conservation. That 
doesn't necessarily mean a career in the National Park Service. 
There are Federal land management agencies. There are State 
agencies. There are NGO's out there. There can be all kinds of 
ways that they can pursue a career in conservation.
    It is difficult though, to get into the National Park 
Service. I sometimes say, we don't hire the best, we hire the 
most persistent. Persistence generally pays off, but it is 
challenging.
    We are working with our human resources folks and OPM to 
try to find better pathways for individuals that show an 
interest and a willingness to pursue a career with us. We would 
love to increase the diversity of our organization. We frankly 
are not a very diverse organization. We're a product of history 
and in many ways and do not reflect the face of America. That's 
a concern for me.
    I think it should be a concern for all of us. That's true 
not only of the National Park Service but also of my 3 sister 
land management agencies: the Forest Service, the Fish and 
Wildlife Service and the BLM. We're all concerned about that. 
We do need to find creative ways to connect these kids and to 
lead them to potential careers with our organizations because 
they are fantastic careers and very, very rewarding.
    But any help that you might be able to provide us. We'd be 
glad to meet with you at some future date to talk about those 
challenges and see if we can't create a little easier path into 
Federal service.
    Senator Udall. Mr. Morris.
    Mr. Morris. Yes, thank you, Mr. Chairman.
    Really 2 strategies come to mind that I'd like to touch on. 
In terms of creating a continuum of experiences for children as 
they grow through their years I had the privilege of growing up 
in Colorado outside of Fort Collins. I was able to go up to 
Rocky Mountain National Park as a kid and experience the 
wonder.
    A lot of kids these days don't have that opportunity. In 
many cases for many of our programs kids have never been to a 
National Park. They've never seen the Pacific Ocean. They've 
never seen the dew dripping off of a leaf from a tree in 
Yosemite.
    So these experiences, while incredibly transformational by 
themselves, are much more powerful if they're strung together 
with multiple experiences. So at NatureBridge we have our core 
field science program which is a week long, 3 to 5 days long in 
the National Parks. We follow that up with additional 
opportunities for kids to engage through their years as I 
referenced in my testimony with Virginia Delgado, whether it's 
a team mentorship program when they get into high school.
    This past summer we created an educator training program in 
Yosemite to draw in candidates for our field science educator 
positions that may not have the hard skills but have the soft 
skills to interact in the educational skills to interact with 
kids. We were able to train them some of the hard skills. Then 
we ended up hiring all of those people to work on our staff for 
full time jobs. So that's one of the things we do in our 
organization.
    But to the points that we've made earlier is we all have to 
work together to string together these opportunities. Research 
does show that it takes 4 to 5 to 7 opportunities as you're 
growing up to actually create, you know, a lifelong infinity 
with the natural world and specifically with natural parks. So 
NatureBridge, while transformational can't do that by 
ourselves.
    We have to hook up with our colleague organizations and 
send kids from our program into the SCA programs into the other 
residential programs. Maybe it starts with a virtual field 
trip. That's what gets them excited or maybe that's what gets 
their teacher excited.
    Then their teacher says I want to go to the NatureBridge 
program in the Santa Monica Mountains or in the Channel 
Islands. So there, you know, there are opportunities out there, 
but as I mentioned it's a disparate field. We have to do a much 
better job of collaboration and bringing people to the table to 
map out these experiences for kids and make them a legitimate 
ladder of learning as kids work their way through their years.
    Senator Udall. There's a true use for high definition TV it 
seems like. Through the power of technology I think we could 
add to those experiences or complement the real experiences 
with those virtual experiences. But you are right.
    Having worked for many years for the Outward Bound system, 
we had many similar non-profits. Sometimes our missions were 
aligned. Sometimes the missions were complementary. Sometimes 
the missions were slightly different.
    There was a healthy competition. But it's a very disperse 
and decentralized world. The more of what you all are doing can 
tie all of that together the better.
    I think, Mr. Mulholland, you see that as a vision of 
creating a confederation in the best sense of a confederation 
of friends of National Parks and the type of organization 
NatureBridge is. Then combined with increased--I shouldn't say 
increased, the high level of professionalism that's always 
existed in the Park Service. The increased knowledge that the 
Park Service has of technology and the importance of making 
this next 100 years equal to the first 100 years which is going 
to be hard to top, isn't it, Director Jarvis? But it can be 
equaled for sure.
    I mean this is truly America's best idea. It's been a 
pleasure to hear from the 3 of you today and the teams that 
back you up and the proposing of all these great ideas. So I 
really enjoyed the hearing. It's been very informative. I think 
we could carry on for quite a bit longer.
    I want to thank you all for your testimony. Besides Senator 
Paul's question on Sequoias and I'm looking forward to the 
answer myself, other members of the subcommittee may submit 
additional questions in writing. If so, we may ask you all to 
submit answers for the record. But I know you'd do that 
eagerly.
    We'll keep the record open for 2 weeks to receive any 
additional comments. With that, thanks again. The subcommittee 
is adjourned.
    [Whereupon, at 3:50p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Jonathan B. Jarvis to Questions From Senator Paul
                          maintenance backlog
    Question 1. Can you please explain to me how the Park Service plans 
to address the $10 billion maintenance backlog?
    Answer. We will continue to address maintenance needs on several 
fronts. Funding proposed for line-item construction will be targeted 
primarily to addressing critical health and safety projects, especially 
if the project involves the repair of a facility for which corrective 
maintenance has been deferred. The National Park Service (NPS) will 
also continue to use other sources of funding for similar projects, 
including repair and rehabilitation funds, housing funds, and 
recreational fee revenue. The NPS will use operational maintenance 
funding, including cyclic maintenance, to help slow the deterioration 
of assets awaiting rehabilitation and to maintain the improved 
condition of repaired assets so that these projects do not become 
deferred. We will continue to target funding toward strengthening 
assets' critical systems (e.g. roofs, utility systems, foundations), 
which are the highest priorities because an overall asset will become 
further damaged and potentially non-functional if the critical system 
is impaired. We will also continue to work toward disposing of more 
low-priority assets that are contributing to the maintenance backlog.
    Question 1a. I do understand that there are sensitive lands and 
certain special circumstances for which land must be acquired despite 
the maintenance backlog. Could you tell me why the NPS couldn't use 
land exchanges to acquire sensitive lands rather than paying to acquire 
these additional lands?
    Answer. The NPS considers all possible avenues to address the most 
urgent needs for recreation; species and habitat conservation; and the 
preservation of landscapes, and historic and cultural resources. The 
NPS has used land exchanges to acquire needed land in certain 
situations. However, in many situations, land exchanges are not a 
viable option, and therefore the NPS uses other means to acquire lands 
from willing sellers.
    Question 1b. Does the National Park Service estimate the 
maintenance costs of new land acquisitions before making the decision 
to purchase additional land? If so, how does this factor into the 
decision-making process? Shouldn't the Federal Government wait until 
the maintenance backlogs for all federal land management agencies are 
paid down before new public land units are established?
    Answer. Yes, the NPS estimates the costs of maintenance for new 
lands before proposing to acquire the lands. Estimated maintenance 
costs are one of the factors that are considered in the priority-
setting process for the Administration's annual budget requests. Most 
of the land the NPS acquires for existing parks is undeveloped, so 
there is relatively little contribution to the maintenance backlog from 
these new acquisitions. We do not believe that designations of new 
units of national parks or other public lands should be postponed 
because there is a maintenance backlog within existing units of public 
lands.
    Question 1c. Generally, when a business or individual cannot afford 
to maintain their assets they are forced to sell the unmanageable 
assets. Can you please explain to me why the National Park Service 
decides to purchase more assets when the NPS cannot take care of what 
they already own?
    Answer. The Administration's proposal to increase funding for NPS 
land acquisition reflects the strong support for land conservation and 
additional outdoor recreational opportunities that was voiced at the 51 
America's Great Outdoors listening sessions held during the summer of 
2010. The lands identified in the FY 2012 budget request are strategic 
acquisitions that would strengthen our existing national parks while 
adding little to operational costs. In fact most of these acquisitions 
or easements would simplify management and reduce expenses related to 
signage, fencing, law enforcement patrols, legal permits, rights-of-way 
conflicts, fire fighting, road maintenance, habitat management and 
restoration, and fighting invasive species, and they would protect 
national parks in perpetuity.
    Question 1d. How does the National Park Service's maintenance 
backlog compare to other Federal Land management agencies?
    Answer. The NPS's maintenance backlog is an estimated $10.8 
billion. The two other Department of the Interior land management 
agencies, the Fish and Wildlife Service and the Bureau of Land 
Management, have estimated maintenance backlogs of $2.9 billion and 
$438 million, respectively. We note that the NPS has far more buildings 
at its sites, which are used by far greater numbers of people, than do 
the other two agencies.
                            raising revenues
    Question 2a. Would the National Park Service consider selling land 
or property that is no longer financially viable for the NPS to 
continue to manage? For example, many of the National Parks in Alaska 
receive fewer than 5,000 visitors per year. Would the NPS be better 
served to raise revenues by selling those lands and transferring assets 
to other Park Units?
    Answer. There are a number of sites under the stewardship of the 
NPS that protect and interpret critically important aspects of our 
nation's natural and cultural heritage, but that receive relatively few 
visitors. In many cases, low visitation is attributable largely to the 
fact that they are in remote locations. The value of these places to 
the American public, now and for the future, cannot and should not only 
be measured by the number of people who visit them.
    Lands managed by the NPS are nationally significant areas that have 
been determined by past Congresses and a number of Presidents (through 
the Antiquities Act) to be worthy of permanent protection for the 
benefit of future generations. If the NPS determined it should no 
longer manage certain park lands, it would require enactment of 
legislation to sell those park lands.
    Question 2b. Can you please provide a list of properties that the 
NPS leases to outside entities? Shouldn't the NPS expand leasing 
opportunities?
    Answer. The National Park Service is gathering information for a 
national database on all current leases with terms in excess of one 
year. This database will enable us to track the number of types of 
leases, types of structures subject to the leases, revenue generated, 
and other information. We are in the final stages of gathering the 
lease information and would be happy to provide the listing once it is 
compiled.
    Concurrently, we are developing tools to help park managers decide 
how to care for our inventory of structures, including whether to use 
leases. By law, leasing of properties in parks is permitted only where 
the proposed use is consistent with park purposes and compatible with 
park programs. However, we anticipate leasing will increase to some 
degree over time as more park mangers become aware of the benefits of 
leasing.
                 buffer zones/park service jurisdiction
    Recently, there have been a number of situations where the National 
Park Service endorsed proposals to increase NPS land or effectively 
create buffer zones around existing National Park Service Units. It is 
important to note that the Park Service only manages land within the 
boundaries of the National Park Units, and is not provided with the 
jurisdiction to manage lands outside of those Units.
    Question 3a. What role should the National Park Service play in 
creating and mandating policy for lands surrounding National Park 
Units?
    Question 3b. If the Park Service plays a role in overseeing 
surrounding lands or resources, the NPS would have extremely far 
reaching jurisdiction, wouldn't you agree?
    Answer. The NPS does not create or mandate policy for lands 
surrounding national park units. The agency does not have jurisdiction 
over lands outside of park boundaries, and it does not play a role in 
overseeing surrounding lands or resources, except in cases where we 
have entered into a cooperative management agreement with a neighboring 
entity. However, in order to address negative impacts on park resources 
from activities outside of park boundaries, NPS managers try to work 
with surrounding communities to find solutions. Working cooperatively 
with partners beyond park boundaries is necessary as the NPS strives to 
fulfill its statutory mandate to preserve the natural and cultural 
resources of parks unimpaired for future generations.
   Responses of Jonathan B. Jarvis to Questions From Senator Barrasso
    The State of Wyoming and the Department of the Interior have 
reached an agreement on the sale and purchase of a state land in-
holding section within the Grand Teton National Park. The agreement for 
purchasing the state lands requires timely action. The Grand Teton 
state land acquisition has been identified as a top priority by the 
National Park Service.
    Question 1a. Does the NPS remain committed to the agreement between 
the State of Wyoming and the DOI?
    Question 1b. What steps are being taken to fulfill the agreed upon 
timeline and accompanying terms?
    Answer. The NPS and Department of the Interior (D01) remain fully 
committed to acquisition of the Wyoming inholdings within Grand Teton 
National Park. A 40-acre subsurface mineral rights-only tract was 
acquired earlier this year for $2,000. Three tracts totaling 1,366 
acres remain to be acquired at a combined appraised value of $107 
million. The NPS has set aside $5 million from FY 2011 funds, and the 
President's budget request for FY 2012 includes $10 million for 
acquiring the Snake River parcel by the January 5, 2013 deadline 
established in the agreement. The NPS intends to seek additional funds 
to complete this acquisition.
    The NPS and the Bureau of Land Management (BLM) are also 
determining if alternative methods to fund acquisition of the 
additional inholdings may be available, such as royalties or bonus bids 
from the sale of coal in Wyoming. A 2006 report to Congress prepared by 
the BLM pursuant to the Grand Teton National Park Land Exchange Act 
(P.L. 108-32) identified several options related to coal as potential 
methods of completing the acquisition. Recent and anticipated future 
sales of coal (through 2013) could potentially provide a source of 
funds for acquisition of the remaining lands, but would likely require 
additional authority from Congress.
    Question 2. In the National Park Service's Call to Action report, 
there are a number of stated goals I would like to have clarified. The 
seventh goal is to create a new generation of citizen scientists.

          a. In the NPS's view, who is a citizen scientist?
          b. Would citizen scientists need to have the same academic 
        credentials as real scientists?
          c. How will the NPS guarantee the educational materials used 
        to create a new generation of citizen scientists is peer 
        reviewed and science-based?

    Answer. Citizen scientists are volunteers who receive training from 
the bureau to enable them to collect accurate field data and may range 
from school children to professional scientists. These highly 
productive volunteer efforts foster a sense of stewardship between 
people and parks. Citizen scientists working on NPS Biodiscovery events 
are generally supervised by an agency or professional scientist to 
ensure safety and credible and useful data collection, and to he 
educated about the resources of the park. Citizen scientist activities 
are designed and overseen by agency personnel with expertise in various 
fields of science. Related education materials may be peer reviewed by 
the professional community, depending on the intended use of the 
citizen-generated information.
    Question 3. The eleventh goal includes creating a new competitive 
state grant program within the Land and Water Conservation Fund State 
Assistance Program for strategically selecting projects that support 
large landscape conservation.

          a. Will the selected project for large landscape conservation 
        be restricted to lands currently within the National Park 
        system boundaries?
          b. If yes, what types of projects are envisioned with the 
        State Assistance Program?
          c. If no, what type of projects are envisioned with the State 
        Assistance Program, and what types of lands will be considered 
        for large landscape conservation.

    Answer. The state grant program helps state and local governments 
preserve open space and provide outdoor recreational opportunities. It 
is not used for purchasing land within national park boundaries.
    The competitive component first proposed in the FY 2012 budget 
request would address the public's concern about the lack of open space 
and outdoor recreational areas in certain urban and other areas, which 
was frequently conveyed during listening sessions for the America's 
Great Outdoors initiative. It would fund ``signature projects'' that 
create more outdoor recreational opportunities and conserve open space 
where access to natural areas has been inhibited or is unavailable; 
protect, restore, and connect open space and natural landscapes; and 
provide access to waterways. The projects would be expected to be 
larger in scale and would likely require and receive greater amounts of 
funding than has typically been awarded.
    Question 4. The twelfth goal includes the protection and 
restoration of waterways across the country by establishing national 
system water trails.

          a. Is this goal different from the Wild and Scenic River 
        designation?
          b. Water is obviously very fluid and crosses many ownership 
        boundaries. How will the NPS advance this goal as water ways 
        leave or come into NPS lands?
          c. What criteria will be used for protection purposes?
          d. What water trails need to be restored?
          e. How does the NPS envision managing a national water 
        system?
          f. What would the costs be for the NPS to manage a national 
        water system?
          g. Will a national water system or water trails affect, in 
        any way, previously agreed upon water compacts between States, 
        localities, and tribes?

    Answer. The goal for a national system of water trails is different 
from Wild and Scenic River designation. Congress designates rivers as 
part of the Wild and Scenic Rivers System in order to preserve them in 
a free-flowing condition for the enjoyment of present and future 
generations. The system of water trails, as currently envisioned, is 
intended to support community-based efforts to expand access to water-
based recreation.
    The national water trails system will use the authority of the 
National Trails System Act, which provides for National Recreation 
Trails to be designated administratively, for the designation of 
national water trails. National Recreation Trails are designated in 
response to applications from trail managers. Local trail managers 
continue to manage their trails. The management of water trails would 
not be related to the management of lands and waters within parks.
    The NPS helps to manage the designation process for National 
Recreation Trails. The process of application review and subsequent 
designation has been estimated at $2,000 per application. This cost is 
covered within existing NPS program's and budget. There are no expected 
long term-costs to the NPS to manage a national water trail system.
    Partnerships are a key component to water trails. Landowner support 
will be necessary to receive designation. Community water trail users 
and local trail managers will identify restoration and water 
improvement goals appropriate to sustain water-based recreation.
    National Recreation Trail applications require trails on State, 
local government, or private lands to have a statement of support from 
the State Trails Administrator. All concerns related to compacts 
between States, localities, and tribes would be addressed before 
designation and continue to be the responsibility of local and state 
officials.
    Question 5. The report states the NPS will manage the natural and 
cultural resources of the NPS to increase resilience in the face of 
climate change and other stressors.

          a. What are the other stressors?
          b. Can the National Park Service predict with accuracy what 
        the weather will be, and what the subsequent impact on the 
        landscape will be, in Yellowstone or any other park unit 5, 10, 
        50 years from now?
          c. Can computer models predict with accuracy what the weather 
        will be, and the subsequent impact on the landscape, in 
        Yellowstone or any other park unit 5, 10, 50 years from now?

    Answer. Climate change is not the only stress affecting resources. 
Other stresses like habitat loss, invasive species, and pollution 
complicate species' and ecosystems' abilities to be resilient in the 
face of change. The NPS and its partners are analyzing historical 
impacts of climate change and future vulnerability of species and 
landscapes. Vulnerability comes from analysis of historical climate and 
impacts data, climate projections, and peer-reviewed published 
information on the sensitivity and adaptive capacity of plants, 
animals, and other resources.
    Because weather is the temperature, rainfall, and wind on a 
particular day, computer models cannot accurately predict the weather 5 
to 50 years from now. On the other hand, models can project future 
climate, which is the average range of temperature, rainfall, and wind 
over an extended period of time. The NPS and its partners are using 
peer-reviewed published climate projections of climate 20 to 100 years 
from now. These projections indicate what the climate may be under 
different plausible scenarios of global trends in energy use, 
population, economic activity, and technology development. So, computer 
models can provide projections of future climate from which the NPS can 
analyze potential future impacts of climate change on landscapes, and 
take appropriate measures to make ecosystems more resilient to these 
impacts.
    Question 6. The twenty first goal calls for the creation of a new 
basis for NPS resource management to inform policy, planning, and 
management decisions and establish the NPS as a leader in addressing 
the impacts of climate change on protected areas around the world.

          a. Is the current basis for NPS resource management failing?
          b. If yes, what are the shortcomings of the existing basis?
          c. If no, why is a new basis needed?
          d. Why does the NPS need to assume the role of a leader in 
        climate change?

    Answer a). No. However NPS approaches to resource management must 
respond to changing environmental conditions and new scientific 
knowledge. In order to increase resilience and management effectiveness 
in the face of emerging issues we believe now is the time to prepare a 
contemporary version of the 1963 Leopold Report to advise the NPS on 
focusing future resource management activities and resources. The 
Leopold Report was written as an advisory document to the NPS Director 
and Secretary of Interior by a committee of independent scientists, led 
by A. Starker Leopold. It proposed a science-based foundation to 
natural resource management in the NPS. Over the following decades, 
many of the principles in this report were adopted by the NPS 
professionals, used to train resource managers, and used to develop and 
improve NPS policies. An updated report, expanded to include both 
natural and cultural resource management will be useful in providing 
contemporary advice to NPS decision-makers.
    Answer c). Many elements of contemporary resource management are 
robust. However, emerging challenges include climate change, habitat 
fragmentation, biodiversity loss, and degradation of cultural 
resources. New scientific knowledge including datasets collected via 
remote sensing, increased modeling and computing power, new techniques 
for wildlife monitoring, and substantial new research findings, inform 
NPS resource management. This new knowledge must be integrated into NPS 
resource management policies, if those policies are to remain 
effective.
    Answer d). The National Park Service is responsible for preserving 
the Nation's natural and cultural heritage, a stewardship that now 
includes protection of more than 84 million acres and reaches over 300 
million visitors each year. Meeting that trust responsibility requires 
a robust scientific understanding of current conditions as well as 
future trends, and climate change affects both. Leadership is necessary 
to increase scientific understanding of climate change, analyze 
potential impacts, and effectively apply that information to resource 
management decisions. The NPS demonstrates leadership by working 
collaboratively through the Department of the Interior Climate Science 
Centers and Landscape Conservation Cooperatives, as well as with other 
partnerships, including with state and Federal agencies, that promote 
science-based decision making.
    Question 7. The twenty second goal is to promote large landscape 
conservation by protecting continuous corridors through partnerships 
across public and private lands.

          a. How does the NPS define what is and what is not a 
        continuous corridor?

    Answer. Our working definition identifies a ``continuous corridor'' 
as that which functionally links two or more areas that support viable 
ecosystems, natural habitats, wildlife populations, or cultural 
resources. By functional, the NPS means that with minimal management 
these corridors can allow the movement of species, continuation of 
ecosystem services, and maintenance of cultural resource integrity that 
are necessary to link and maintain the viability of the areas that the 
corridors connect. This working definition is similar to The Western 
Governors' Association Wildlife Council draft definition (August 2011), 
which defines important wildlife corridors as crucial habitats that 
provide connectivity over different time scales (including seasonal or 
longer) among areas used by animal and plant species. Wildlife 
corridors can exist within unfragmented landscapes or join naturally or 
artificially fragmented habitats, and serve to maintain or increase 
essential genetic and demographic connection of aquatic and/or 
terrestrial populations.

          b. What other federal land agencies will be public partners 
        in creating continuous corridors?

    Answer. Protection of wildlife and cultural corridors requires the 
collaboration of federal agencies that manage or support protected 
lands including, but not limited to, the U.S. Fish & Wildlife Service, 
Bureau of Land Management, U.S. Forest Service, Natural Resources 
Conservation Service, Department of Defense, Bureau of Indian Affairs, 
U.S. Army Corps of Engineers, U.S. Bureau of Reclamation, Tennessee 
Valley Authority, and National Oceanic & Atmospheric Administration.

          c. Will state lands be considered for the continuous 
        corridors?

    Answer. Yes, states will be key partners in the conservation of 
continuous corridors as landowners and as law-and policymakers that 
affect land use.

          d. Does the NPS believe the creation of continuous corridors 
        is in the public good and eminent domain powers could be used 
        to obtain strategic private lands to make a corridor 
        continuous?

    Answer. The NPS believes that continuous corridors will result in a 
public good through the conservation and restoration of intact natural 
ecosystems and the preservation of cultural resources. As stated in 
Action #22, NPS will achieve this goal through voluntary partnerships 
across public and private lands. The NPS will work with willing sellers 
to acquire land within park boundaries and will seek to create 
partnerships with federal, tribal, state, and local governmental 
entities, non-governmental organizations, and private landowners to 
create continuous corridors. This approach is consistent with 
recommendations in Rethinking the National Parks.* the 21st Century 
(National Park System Advisory Board, 2001) which states: ``Parks 
cannot survive as islands of biodiversity. They need to be linked with 
other natural areas through wildlife migratory corridors and greenways. 
These connections can only be created through partnerships.'' Other 
land protection tools, such as conservation easements, will be 
important parts of a strategy in conserving corridors as land ownership 
when implementing landscape-scale conservation efforts.

          e. What are the boundaries of the five geographic regions 
        mentioned in goal twenty two?

    Answer. The five geographic regions referenced in Action #22 have 
not been determined. The NPS is currently evaluating a number of areas 
where continuous corridors could be identified, restored if necessary, 
and conserved. The NPS is committed to involving landowners, other 
stakeholders, and the general public in the selection of the regions.

          f. Will the federal Land and Water Conservation Fund be 
        targeted to make strategic land acquisitions for corridors 
        outside of national parks?

    Answer. The NPS has no authority to acquire lands outside the 
boundaries of units of the National Park System except for 
congressionally authorized trails in the National Trails System and 
rivers designated in the Wild and Scenic Rivers System.
    Question 8. The twenty sixth goal is to return the American Bison 
to the landscape.

          a. Where will the three wild bison populations be located 
        across the central and western United States?
          b. Will the NPS, tribes, private landowners, or other land 
        management agencies manage the bison?
          c. What is the target number for each of the three bison 
        herds?
          d. How many total acres will be required to sustain the 
        desired population levels?
          e. Will the NPS provide the funding for managing the bison 
        herds?
          f. Outside of Yellowstone National Park, what current NPS 
        lands are candidates for bison population?

    Answer. Specific locations and a target number are undetermined at 
this time. The NPS is working closely with state, federal, and private 
partners to discuss opportunities for bison conservation. Depending 
upon location, bison could be managed by tribes, the Intertribal Bison 
Committee, federal, or private partners. Bison are currently managed at 
Badlands National Park, Wind Cave National Park, Theodore Roosevelt 
National Park, Chickasaw National Recreation Area, Tallgrass Prairie 
National Preserve, Grand Teton National Park, and Yellowstone National 
Park. The NPS would only fund wildlife management on NPS lands.
    The DOI Bison Conservation Initiative, signed by former Secretary 
of the Interior Dirk Kempthorne on October 28, 2008, called for federal 
agencies to coordinate management of existing bison herds on federal 
lands, research bison genetics and disease, and study partnerships to 
increase existing herds or establish new ones to assist in the 
ecological recovery of the species. The NPS will continue to implement 
bison conservation strategies based upon rigorous scientific goals and 
objectives outlined in the 2008 Initiative in order to ensure the 
perpetuation of this iconic species.
    Question 9. The twenty seventh goal is to protect natural darkness 
as a precious resource.

          a. What basis is there for natural darkness to be managed as 
        a precious resource?

    Answer. National Park Service 2006 Management Policies identifies 
Natural Darkness as both a natural resource and a park value. 
References to the value of starry night skies in a park setting are 
also found in NPS policy statements dating back to at least 1997.
    We note that protection of natural darkness is a growing park 
visitor interest. This is evidenced by ranger program statistics that 
shows sharply increasing participation in park stargazing programs, 
visitor surveys conducted by academic institutions, and a high number 
of popular media articles on the subject. Furthermore, the NPS has 
conducted measurements of night sky quality at numerous parks, showing 
that few NPS units still retain natural or near-natural night skies and 
a large fraction of them experience degradation of night sky quality 
due to poor quality outdoor lighting. The NPS is building on the 
successes of local initiatives (private sector, academia, and local 
government), which are grounded in opportunities for increased tourism 
and other forms of economic growth.

          b. What light sources are incompatible within a Dark Sky 
        Cooperative for natural darkness? For example, would a campfire 
        be incompatible? Would a flashlight be incompatible? Would a 
        highway with vehicles traveling at night be incompatible? Would 
        the lights from power plant be incompatible? What about house 
        lights from in-holder properties? What types of future light 
        sources would be precluded from use within a Dark Sky 
        Cooperative?

    Answer. Best management practices for outdoor lighting recommend 
using light only when it is needed (e.g. turning off when not needed, 
using timers or motion sensors), shielding the light so that all light 
shines downward, and using the right amount of light for the 
application. This guidance does not preclude the use of light for human 
safety, utility, and convenience. Many lighting manufacturers offer 
``dark sky friendly'' outdoor lighting fixtures. Using such lighting 
results in a substantial improvement in night sky quality while also 
being energy efficient, reducing glare, and improving visibility. 
Portable lights, headlights, and campfires cause far less impact to the 
environment than permanent fixed lighting and generally are not 
addressed within the context of lighting guidance for natural resource 
conservation. Lighting from private residences, municipalities, and 
industrial sites can impact night sky quality. Night sky friendly 
solutions for those applications have been successfully implemented in 
many locations and on many different levels, ranging from city and 
county ordinances to purely voluntary measures.
    We do not anticipate that any future sources would be precluded 
from use within the Dark Sky Cooperative. On the contrary, most new 
forms of lighting, including emerging Light Emitting Diode (LED) 
lighting technology, can actually further the effectiveness of night 
sky conservation. LEDs are more easily directed, can be more easily 
controlled with smart circuitry, can shift colors and dim readily, and 
can be more finely tuned to the human necessity.

          c. What is the minimal number of square miles needed to 
        create a Dark Sky Cooperative?

    Answer. The minimum size to protect natural darkness will depend on 
the objectives set forth by those wishing to participate including 
public land managers, local communities, chambers of commerce, state 
tourism offices and the citizens of the area. The NPS expects the Dark 
Sky Cooperative on the Colorado Plateau to unfold through voluntary 
participation. There is not likely to be a contiguous boundary, but 
instead a patchwork of supporters and participants across the 
landscape. The larger the area, the more effective the measures will be 
toward conserving the dark night sky. Success from an NPS perspective 
would mean that the entire Colorado Plateau would see economic value 
and growth through tourism, improvement to its natural resource 
condition, and the preservation of its cultural heritage through 
participation in a Dark Sky Cooperative.
    Question 10. One of the major goals in the Call to Action is 
connecting people to parks. National Parks in Wyoming attract nearly 
6.3 million visitors every year. Many of these visitors come by 
motorcycle and they help support local economies. Motorcyclists seek 
out the sights, scenery, camping, recreation opportunities, and roads 
suited to motorcycle touring that National Parks, like Yellowstone and 
the Grand Teton offer in Wyoming and that other Parks offer across the 
country.

          a. What are your impressions of the economic impact that 
        motorcyclists have on areas surrounding many of our National 
        Parks?
          b. What are you doing to encourage even more motorcyclists to 
        discover our National Parks?

    Answer. Although many visitors travel by motorcycle to national 
park units, the NPS does not calculate economic impacts specifically 
for motorcyclists. The NPS National Tourism Strategic Plan encourages 
parks to work with tourism partners in our gateway communities to 
invite all Americans--and our foreign guests--to experience their 
national treasures. In some cases, these tourism partners identify 
package tour providers who accommodate a particular market interest 
based on travel themes and transportation modes--motorcycles and 
bicycles for example. A result of this is a growing trend among foreign 
travelers to purchase tour packages that feature motorcycles as their 
mode of travel to national parks. Wherever appropriate, park managers 
work with their partners to educate these visitors on means of 
enjoyment and safe routes and practices.
                                 ______
                                 
                                                   October 6, 2011.

Hon. Mark Udall,
Chairman, Subcommittee on National Parks, U.S. Senate Committee on 
        Energy and Natural Resources, Washington, DC.
    Dear Chairman Udall:

    The National Park Foundation and I greatly appreciated your 
invitation to testify before the Subcommittee on National Parks at the 
September 21, 2011 hearing to review the National Park Service report, 
A Call To Action: Preparing for a Second Century of Stewardship and 
Engagement. As I stated in my testimony, the Foundation is eager to 
assist the Park Service in finding creative and innovative ways to meet 
the goals outlined in A Call To Action, including its call for an 
endowment, and to strengthen the important role of philanthropy and 
partnership in the next century for parks.
    Senator Paul has asked me to estimate the amount of private funds 
that the Foundation provides to the Park Service each year. I am proud 
to share that the Foundation provided $22 million in grants, program 
support and contributed goods and service to the National Park Service 
in FY2010. In the previous five years (FY2006-FY2010) the Foundation 
has provided $95 million in grants and program support and more than 
$28 million in contributed goods and services to the NPS, a total 
contribution of over $123 million and an average of $25 million 
annually. I should also note that, unlike other Congressionally 
chartered nonprofits established to support land management agencies, 
the Foundation receives no federal appropriations and raises every 
dollar it contributes to our parks.
    I want to extend my sincere thanks to you and to Senator Paul for 
your keen interest and questions at the September 21, 2011 hearing, and 
for your ongoing support of the Park Service. Of course, I would be 
delighted to provide additional information and respond to any further 
questions you might have.
            Sincerely,
                                           Neil Mulholland.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

      Statement of Derrick A. Crandall, Counselor, National Park 
                        Hospitality Association
    Mr. Chairman and Members of the Subcommittee, my name is Derrick 
Crandall and I am delighted to submit the following statement as a 
representative of the National Park Hospitality Association (NPHA). 
NPHA is honored to contribute to the discussion of the future of the 
National Park System and, in particular, to provide the Subcommittee 
with our comments on the recently released report entitled A Call to 
Action: Preparing for a Second Century of Stewardship and Engagement.
    Concessioners are proud of the important role they play in helping 
people enjoy parks. Visitors come to the national parks to be inspired 
by the beauty of the parks while relaxing, recreating, learning, and 
having a good time with family and friends. What we do as concessioners 
has a great deal to do with the overall experience when they visit the 
park. We are an integral part of the national park experience and an 
important element in helping the NPS meet its mission. We are working 
hard at demonstrating best practices in environmental management, and 
are ISO-certified in many parks. We are active in offering healthy, 
sustainable foods to park visitors. We are true partners with the 
National Park Service.
    Concessioners have served park visitors since the 1870's and today 
serve some 100 million park visitors annually in approximately 160 park 
units, providing food and lodging, transportation and retail services, 
outfitter and guide services and more. NPHA members have a combined 
workforce of nearly 25,000 persons--mostly front-line, visitor-contact 
jobs--and provide in excess of $1 billion in goods and services to 
visitors annually. Franchise fee payments to NPS generated from the 
approximately 600 concessions contracts are now approaching $100 
million annually, or about the combined sum raised annually by the 
National Park Foundation and members of the Friends Alliance.
    And concessioners do far more than generate franchise fees. Our 
Guest Donation programs operate in partnership with local friends 
organizations and the National Park Foundation (NPF). NPF-associated 
programs alone, in 13 parks, have generated almost $2 million for 
deserving park projects since 2006, including more than $500,000 in the 
year ending June 30, 2011. Concessioner marketing and park promotion 
efforts exceed $10 million annually, and are coordinated with the 
marketing and promotion efforts of states and gateway communities that 
equal that amount. In addition, concessioners have made significant 
financial investment in the visitor infrastructure of many park units.
    Concessioners are now actively involved in efforts to promote the 
National Park System and to reach those Americans unaware of the great 
benefits available through time in our parks rather than focusing our 
efforts on specific parks and services and traditional park visitors. 
Most importantly, concessioners are committed to meeting America's 
needs--needs for healthier lifestyles, for better and lifelong 
educational opportunities, for strong local and regional economies that 
can sustain and protect our parks, and for connecting all Americans to 
our parks across differences in regions, ages, income and ethnicity.
                      comments on a call to action
    NPHA commends the efforts of the National Park Service in producing 
A Call to Action: Preparing for a Second Century of Stewardship and 
Engagement. We applaud the report's overriding philosophical goals: 
creativity, flexibility and partnerships. We believe the National Park 
Service's commitment to these goals will support excellence in visitor 
experience long into the future. The report is timely and deals with 
important issues facing national parks today. A Call to Action focuses 
on encouraging people to explore our parks and also recognizes an 
increased role for parks in helping people to lead healthy and happy 
lives.
    Concessioners have expressed--and acted on--their commitment to 
support parks in many ways. NPHA believes that the key to a healthier 
America lies in encouraging people to have fun in the great outdoors--
and that increased physical activity, leading to better overall health, 
will be a natural result of such encouragement. This value is 
exemplified in Action Step #6 of A Call to Action: Take a Hike, Call Me 
in the Morning. We have worked with the Institute at the Golden Gate on 
several break-through meetings and the report Park Prescriptions: 
Profiles and Resources for Good Health from the Great Outdoors, which 
is attached.* We played a central role in bringing the health agenda to 
the America's Great Outdoors (AGO) initiative, including uniting dozens 
of recreation and health organizations for the special AGO listening 
session on Health and the Great Outdoors in August 2010.
    We also applaud Action Step #8, Eat Well and Prosper, which 
highlights the role of national park concessioners in offering park 
visitors healthy food choices. Our members already offer healthy food 
to most park visitors, as well as information on continued healthy 
eating at home. And we plan on increasing these efforts. But it takes 
partnership and cooperation. Not all parks have easy access to locally 
grown foods for the full period of operation, and National Park Service 
approval of menus and pricing can be a barrier to these goals. 
Concessioners seek to not only offer healthy, reasonably priced and 
sustainably produced foods, but also to make our food operations 
reflect environmental best practices. Our members have achieved 
remarkable reductions in waste generation and energy and water use, and 
have even worked with local food suppliers to ``return-ship'' 
compostable wastes to be used in producing more food. Some of these 
efforts are showcased in another Institute at the Golden Gate report, 
Food for the Parks: Case Studies of Sustainable Food in America's Most 
Treasured Places, which is also attached.*
---------------------------------------------------------------------------
    * Reports have been retained in subcommittee files.
---------------------------------------------------------------------------
    A Call to Action shows a very strong commitment to reaching 
America's youth, helping our next generation abandon its increasingly 
sedentary lifestyle and enjoy and sustain our nation's parks--a 
sentiment NPHA supports completely. We are proud that concessioners 
have long supported--and support today--outreach programs like 
NatureBridge and school trips to parks. These actions and more will 
become part of the broader effort to prepare the National Park Service 
for another 100 years of serving and aiding the American public.
              supporting and building on a call to action
    The National Park Service can serve the nation well over the next 
100 years, especially through actions and programs in partnership with 
other government agencies, businesses serving visitors in and near park 
units, national and local friends organizations, conservation 
organizations and others. To unite and empower these park partners, the 
National Parks Conservation Association, National Park Foundation and 
NPHA will organize a first-ever America's Summit on National Parks in 
January 2012. The Summit will draw leaders from across the nation to 
Washington to meet with Members of Congress and National Park Service 
officials, with medical and education community leaders and more. The 
Summit will acknowledge the energies invested over several decades in 
crafting visions for America's national parks and the National Park 
Service, review A Call to Action and then unite park partners around 
supplemental actions designed to make national parks relevant and 
valued to all Americans.
    As longtime partners of the agency in protecting park resources and 
serving visitors, NPHA believes there are additional courses of action 
required to fully prepare the National Park Service to welcome a new 
century. We are delighted to pledge support to NPS efforts on the 36 
identified action steps as well as outline important additional actions 
that will build upon A Call to Action. In this light we offer the 
committee several ideas and suggestions.
    First, national parks have long been a major focus for family 
activity. Yet the word ``family'' does not appear in A Call to Action 
at any point in the report. We plan to continue to focus on helping 
American families plan and enjoy multi-generational park experiences 
for the next 100 years.
    Second, we plan to continue another long tradition of involvement 
in helping Americans--and international visitors--reach national parks. 
Many of the early concessions operations in parks involved partnerships 
with railroads. We continue to work with transportation companies and 
public transportation agencies in the 21st century to help visitors 
access our parks, and believe that there are exciting opportunities 
ahead.
    And third, we strongly encourage actions to reach active younger 
American servicemen and servicewomen, their families and recently 
discharged military members. Their service can and should be rewarded 
with special invitations to enjoy America's national parks. Moreover, 
the age and diversity of America's military community make them 
especially important to efforts to share the benefits of parks with all 
Americans.
            npha offered suggestions to nps plan development
    NPHA offered the National Park Service several specific suggestions 
for inclusion in the A Call to Action plan. Our suggestions were not 
included, but we believe these ideas deserve attention as you consider 
actions regarding national parks and other National Park Service 
activities. These steps would increase visitor satisfaction, better 
connect guests to parks and increase and streamline fee collection 
efforts--actions that we estimate would achieve a sustainable annual 
gain of at least $110 million in revenue and savings. The key steps 
include:
    Campground Improvements: The National Park Service needs to take 
action to reverse the decline in use of its campgrounds while also 
reducing operation and management costs. The National Park Service 
should take advantage of its partners in the private sector by calling 
upon concessioners to develop and implement new operational strategies. 
By modernizing, better marketing and better maintaining campground 
operations, the National Park Service can increase visitor satisfaction 
and campsite occupancy, save millions in operating costs and redeploy 
staff to still provide the interpretive and other services so valued by 
park campers.
    Incentivize Concessioners: Concessioners are proud of their efforts 
to meet visitor needs and protect park resources. Many exceed 
performance required under concessions contracts. Yet current 
evaluations do not provide for any rating above ``satisfactory.'' We 
propose that concessioner evaluation include an opportunity to earn 
``outstanding'' and/or ``superior'' ratings and become eligible for 
contract extensions. Extending contract period for valuable partners 
will also substantially reduce NPS costs for prospectus development and 
offer evaluation.
    Increase Franchise Fees: NPS now collects nearly $100 million 
annually in franchise fee payments by concessioners. This income 
stream--used for vital maintenance and other priority purposes--can 
grow substantially if concessioner services are expanded appropriately. 
A national strategic business plan could define added services and help 
concessioner revenues increase by as much as 50% within four years.
    Cooperative Research: NPS and concessioners each fund research on 
visitor experiences and on attracting non-traditional visitors to 
parks. These efforts should be unified, with the results guiding 
cooperative actions.
    Promotion of Non-Peak Periods: Cooperative efforts should be 
launched to expand non-peak visitation. Part of the promotion can 
involve activities showcasing American Indian artists and other 
educational/cultural events. Increases in total park visitation of five 
million will result in entrance fee and franchise fee increases with 
little additional operational costs.
    Expanding Annual Pass Sales: Sales of the America the Beautiful 
Pass could be increased from the current level of 260,000 passes 
annually to at least 500,000 annually if sales were promoted by 
concessioners at the time lodging and other reservations are taken. 
Holders of annual passes are more likely to plan visits to other park 
units--including lesser visited sites. Purchased passes could either be 
mailed to visitors or held for pick up--much like will-call tickets are 
at theaters.
    Expand the Guest Donation Program: The current Guest Donation 
Program generates more than $500,000 annually for park programs and 
projects in about a dozen units, mostly under agreements done in 
cooperation with the National Park Foundation. The program is burdened 
by red tape and poor communication to guests and concessioners about 
the uses of contributed funds. The program can be re-energized and 
expanded greatly to all park lodging operations, to non-lodging 
services and to gateway communities. In addition, guests making a 
donation during their visit to a park could be invited to learn how 
they could make more significant contributions to either a specific 
park unit or the entire system. Participating concessioners would then 
arrange contact between interested guests and either the National Park 
Foundation or a local friends group.
              needed: a better visitor services initiative
    Above and beyond A Call to Action, there is a critical need to 
respond to changing needs and expectations by park visitors. We are 
concerned that park visitation has declined by some 5% since the late 
1980's--despite an increase in the U.S. population of nearly 30%. The 
decline in hours spent in parks since the 1980's is even more 
dramatic--meaning visitors are spending, on average, fewer hours during 
each experience. Overnight stays in NPS campgrounds are also down--some 
17%--when overall U.S. campground use is up, and when ownership of RVs 
has reached a new high of one in every 12 U.S. households.
    To address these concerns, NPHA members have developed a plan to 
improve park visitor experience. Our plan is called the Better Visitor 
Services Initiative and is attached. It has five elements:

  <bullet> Improve Visitor Infrastructure to Attract More Visitors.--
        Park visitor infrastructure must support relevant experiences 
        for 21st century Americans, and must support an increase of 
        visitation parallel to the overall growth of the U.S. 
        population.
  <bullet> Revitalize NPS Campgrounds.--As mentioned earlier, NPS 
        campgrounds are significantly underutilized, and use has 
        declined markedly. Campgrounds need modernization and new 
        options, including simple shelters like cabins, tents and 
        tepees/chickees available for rent.
  <bullet> Encourage Concessioner Investment in the Parks.--Nearly all 
        concessions contracts under the 1998 National Park Service 
        Concessions Management Improvement Act have been for 10 years, 
        despite authority for longer contracts. NPS should reduce the 
        deferred maintenance backlog and reduce the need for taxpayer-
        funded capital investments by encouraging concessioner 
        investments through longer contract terms.
  <bullet> Rethink Park Fees.--Entrance and other fees by the NPS 
        should be studied carefully to develop a fee program that 
        yields revenues to aid park operations and better supports 
        overall the park mission.
  <bullet> Initiate Outreach Efforts to Boost Visitation.--Park 
        experiences deliver great benefits--including better mental and 
        physical health, education about our nation's history and the 
        environment, regional economic benefits and more. Yet a large 
        portion of the public is unaware of national parks--especially 
        young people and the urban, economically disadvantaged, and 
        minority components of our population.
                                summary
    Mr. Chairman and Members, we commend the National Park Service on a 
job well done in its plan entitled A Call to Action: Preparing for a 
Second Century of Stewardship and Engagement. The plan recognizes the 
need for parks to encourage Americans to get back in touch with nature, 
engage in physical activity and outdoor recreation, and connect to the 
magnificent culture, heritage and landscapes that are showcased in our 
National Park System. It recognizes the need to reach out to youth to 
encourage them to share in the wonder and enjoyment of our national 
parks and discourage the increasingly sedentary lifestyles that are 
contributing to our healthcare crisis. It also recognizes the need to 
expand park visitation to encourage minorities, disadvantaged 
communities, new Americans and urban residents to see their national 
parks for themselves and to build a broader constituency for America's 
great outdoors.
    The National Park Hospitality Association and the national park 
concessioners want to help continue the contributions of the National 
Park Service to our national well-being. The upcoming 100th anniversary 
of the agency's creation offers a wonderful opportunity to find new and 
innovative ways to improve the parks and create a new generation of 
Americans who share in the wonder of this amazing legacy. We thank you 
for considering our thoughts and recommendations. We would be delighted 
to provide additional information and respond to any questions you 
might have.
                                 ______
                                 
 Statement of Jeff Chapman, Public Lands Committee Chair, Back Country 
                         Horsemen of Washington
    Representing Back Country Horsemen of Washington, I'd like to state 
that I'm very disappointed with this report. I was a very active 
participant in the Americas Great Outdoors effort from the beginning 
and believed it held great promise for showcasing the various issues 
that related to our federal public lands. While it seemed to have a 
very limited agenda at first, recreation users from across the nation 
became involved. There is indeed much disagreement among public land 
users, but together we are the collective drama that is America. That 
is what National Parks were supposed to be about, showcasing the 
thoughtfulness and efforts of a growing Nation. The main group I am 
part of, pack and saddle stock users, represent the continued legacy of 
the working human and animal effort that built America and managed our 
public lands as well as our National Parks. Aldo Leopold was an avid 
horse rider. What led to treasured Wilderness areas throughout America 
was the vision of horsemen and hikers, each of which I am an NGO 
Director for.
    The NPS A Call to Action has none of this in it. None of the goals 
cover recreational trails or maintenance or even Wilderness. It doesn't 
recognize the importance of stock use or even hiking for that matter. 
It strips the AGO effort of all the rural, active recreation, and even 
historic context. It is simply a sterilized gratuity to the Get Kids 
Outdoors theme by allowing short attention span kids to observe 
National Parks through a looking glass made of wireless technology and 
very controlled visitations. It sets National Parks up as museums in 
the name of conservation, and it makes conservation as a trendy look-
but-do-not-touch ethic. It does show that the intent of using LWCF 
funds is not to improve our public lands experience but to purchase 
private lands and make them off-limits to people. Simply said, we, the 
Americans that lived our lives around public lands (I worked at Mt 
Rainier National Park) are being written out of history.
    A Call to Action would be fine if it was only one chapter of a much 
bigger story. It reads more like A Call to Inaction.
    Thank you

                                    

      

</pre></body></html>
